<html>
<title> - REVIEW OF THE NEW LONDON EMBASSY PROJECT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]












                REVIEW OF THE NEW LONDON EMBASSY PROJECT

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2015

                               __________

                           Serial No. 114-86

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-393 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                    
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
    Andrew R. Arthur, National Security Subcommittee Staff Director
                      Cordell Hull, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 8, 2015.................................     1

                               WITNESSES

Ms. Lydia Muniz, Director, Bureau of Overseas Buildings 
  Operations, U.S. Department of State
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Gregory B. Starr, Assistant Secretary, Bureau of Diplomatic 
  Security, U.S. Department of State
    Oral Statement...............................................    11
    Written Statement............................................    12
Mr. Steve A. Linick, Inspector General, Office of the Inspector 
  General, U.S. Department of State
    Oral Statement...............................................    14
    Written Statement............................................    16

 
                REVIEW OF THE NEW LONDON EMBASSY PROJECT

                              ----------                              


                       Tuesday, December 8, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, Meadows, DeSantis, Buck, Walker, Blum, Hice, Russell, 
Carter, Hurd, Palmer, Cummings, Maloney, Norton, DeSaulnier, 
Welch, and Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order. Without objection, 
the chair is authorized to declare a recess at any time.
    Today's hearing is the third in a series examining the 
State Department's construction of diplomatic facilities 
overseas. In July, we learned how State failed to properly 
acknowledge known risk in the construction of the new embassy 
in Kabul, Afghanistan. Building the embassy in Kabul has taken 
longer and cost hundreds of millions of dollars more than 
budgeted, leaving embassy staff in less secure and temporary 
facilities. In September, we saw how a long delay to design and 
build consulates in Matamoros and Nuevo Laredo, Mexico, exposed 
personnel to some unnecessary risk. And today we hope to 
understand the State Department's progress in the building a 
new embassy in London, perhaps the single largest expenditure 
we've had on such a building.
    Obviously, the United States needs a large, secure, and 
functional embassy in the capital of one of its oldest and most 
important allies. Certainly, our presence in London is 
noteworthy and it needs to provide a variety of functions, 
above and beyond what other embassies, I'm sure, are called 
upon to do. But one of the things we're concerned about is the 
State's gambling with Federal dollars to get the embassy that 
our diplomats need.
    Over the summer, the State Department inspector general 
issued a report on its findings regarding the London embassy 
construction. The inspector general found that while the agency 
has certified to Congress its plan for a new embassy would be 
secure, in reality that was not necessarily the case at that 
time. In fact, State had no idea that the embassy had met 
security standards, but it started the construction anyway.
    State's premature certification and construction violated 
Federal law and its own internal policies, which required State 
to prove the new embassy would be safe before construction 
began. Construction in London began before State even blast 
tested the embassy's outside wall, a test designed to ensure 
the safety of the building and its personnel.
    Rather than admitting that it violated Federal law, State 
doubled down. Outside the building, called the curtain wall, 
had failed several computerized blast tests. In fact, let's put 
up a picture of the rendering. This is just a rendering, not a 
picture, but a rendering of what the new embassy is supposed to 
look like in its finality. The outside of the building, called 
the curtain wall, had failed several computerized blast tests.
    Thank you. You can take that down.
    State's Diplomatic Security Bureau required Overseas 
Buildings Operations to do full-scale blast test using 
explosives rather than a computerized simulation. That blast 
test did not start until at least 3 months after State 
certified to Congress that the curtain wall was safe. And the 
curtain wall did not actually pass blast testing until 
approximately 6 months after the certification and construction 
had begun.
    Proceeding without knowing whether the building would be 
safe was gambling with the government's money, and we're 
concerned about that long term. State is freely spending tax 
dollars on its embassy and consulate construction around the 
world, yet asserts it is, quote-unquote, self-funding the 
London project through sales of other properties in London.
    But that's part of the problem with the London embassy 
construction. State sold its current embassy in London to a 
group of investors, and under the deal State has to leave its 
current space by early of 2017. Significant financial penalties 
to State and ultimately the taxpayers will be incurred should 
construction run over schedule. As we've learned over several 
past hearings on the subject, most of the time, at least our 
experience, that has happened.
    Fear of those penalties drove State to take significant 
risks to meet its aggressive schedule. These risks include 
contracting vehicle never before used by the State Department. 
According to the inspector general, the contracting officer did 
not fully understand the contract. That lack of understanding 
resulted in the Overseas Building Operations office and the 
inspector general's inability to account for roughly $42 
million. The IG does not believe the money is missing. It's 
just not accounted for due to mismanagement.
    Quite frankly, I can't tell the difference. If they can't 
account for it and they can't find it, I just don't know how 
it's not missing, and that's part of what we're hoping to clear 
up here today.
    Even accepting the IG's conclusion, this shows that State, 
trying to meet perhaps too aggressive a construction schedule, 
made another gamble by using a contracting vehicle that it did 
not understand. State did accept the inspector general's 
recommendation that it offer additional training for future 
contracts of this sort, but there are some other challenges and 
questions we have that we hope to have clarified regarding the 
London embassy project.
    The State Department spent $1 million, evidently, on a 
granite sculpture that was too heavy for the new embassy. 
However, no one figured that out before spending the money. In 
addition, the glass for the curtain wall should have been 
earning some frequent flyer miles as press reports indicate the 
glass was manufactured in Europe, shipped to the United States 
under guard for framing, and then sent back across the Atlantic 
for installation in London. State's under secretary for 
management, the same person who certified the construction 
could begin before the blast testing, dismissed the criticism, 
saying, quote, ``Sometimes you have to move things, sometimes 
you don't,'' end quote.
    And finally, the documents produced to the committee show 
that State authorized what appears to be $12 million in soil 
remediation. As we have discussed in other hearings this year, 
particularly in Mexico City, State apparently doesn't mind 
building embassies in places where the soil is contaminated. We 
would like to learn more about what's happening there.
    We need to get our people in safe facilities as quickly as 
possible. We don't need to take wild risks and freely spend 
money that could otherwise be used to get other folks in high-
risk places into safer facilities.
    Building and construction is a volatile situation. There 
are many, many moving parts, and things change and adapt as 
they move over time. We understand that. There needs to be some 
degree of flexibility. But with two outstanding recommendations 
from the inspector general, we would like to have those 
resolved and have this discussion.
    This is a billion-dollar expenditure and we need to get it 
right, because London is one of our most important embassies on 
the face of the planet, and we need to make sure that it's done 
right and properly and we account for, in this case, tens of 
millions of dollars that we can't seem to find.
    So, with that, I would now like to recognize the 
distinguished member, the ranking member, Mr. Cummings, for his 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
calling today's very important hearing.
    As I said at our first hearing on the London embassy 
project back in July of last year, our diplomats overseas 
deserve the most secure embassies in the world. Today, a year 
and a half later, I am pleased that experts from the State 
Department and its construction contractor have confirmed that 
this project is meeting all security specifications, including 
for the glass curtain wall that is being built to comply with 
all of the required security standards.
    The recent attacks in Paris, as well as those here in the 
United States, remind us that we face threats not only in high-
risk locations like Afghanistan. And, of course, London has 
been the victim of its own horrific terrorist attacks, 
including the 2005 suicide bomb attacks against the public 
transit system that killed 52 people, as well as the stabbing 
last Friday, the details of which are still being investigated. 
As the President discussed in his speech Sunday night, the 
terrorist threats continue to evolve here and abroad.
    In Assistant Secretary Starr's written testimony today, he 
highlights the Department's efforts to research, develop, and 
evaluate new and innovative methods in order to protect our 
people in the face of this ever-changing threat. In addition to 
meeting all of the required security standards, construction of 
the London embassy remains on budget and on schedule according 
to the State Department.
    In her written testimony at today's hearing, Lydia Muniz, 
the director of the Bureau of Overseas Buildings Operations, 
states that this project, and I quote, ``is on budget and on 
schedule to be completed at the end of 2016,'' end of quote.
    Some people may not know this, but this entire project is 
being funded through proceeds from the sale of our existing 
embassy property in London, meaning that this project has posed 
no additional cost to the United States taxpayers. Meeting 
security, budget, and schedule milestones during such a large-
scale and complex project is no small feat. The Department has 
a rigorous construction schedule so that it can move our 
personnel from the existing outdated embassy to the new 
facility as quickly as possible.
    I also want to thank the inspector general for being here 
today and for the work of his office in ensuring that funding 
is being used judiciously on this project. We've come a long 
way since the massive cost overruns and delays we saw in the 
construction of the U.S. Embassy in Iraq during the previous 
administration. However, we must always strive to continue 
improving our processes. So I thank the inspector general for 
his report, and I look forward to hearing about any remaining 
concerns that may still need to be addressed with regard to 
this project.
    The new embassy currently being built in London will have 
more stringent security features than found in many other high-
profile buildings throughout the world, including the building 
we are sitting in right here today in Washington, D.C. These 
features include blast resistant setbacks from the street, 
anticlimb barriers, and a number of other specifications.
    Today, I hope our State Department witnesses will discuss 
all of these issues. But I also hope they will address one 
more. While we must ensure that our diplomats serving overseas 
have secure facilities, we also have to make sure they are able 
to do their jobs. According to press reports, many diplomats 
are concerned that the United States will not be well served by 
preventing our diplomats from being able to interact abroad. 
They are concerned that a fortress mentality will impair their 
work.
    So, in addition to addressing security concerns, which are 
paramount, I hope our witnesses here today will also discuss 
how they plan for the new embassy to operate in a way that 
maximizes the functions of our critical international diplomacy 
while keeping our diplomats safe.
    With that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Chairman Chaffetz. We'll now recognize our witnesses. I'm 
pleased to welcome back Ms. Lydia Muniz, director of the Bureau 
of Overseas Buildings Operations at the United States 
Department of State; we have Mr. Gregory Starr, assistant 
secretary of the Bureau of Diplomatic Security at the United 
States Department of State; and Steve Linick, inspector general 
of the Office of the Inspector General at the United States 
Department of State.
    Welcome all.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. If you'll please rise and raise your right 
hands.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth? Thank you.
    Let the record reflect that all the witnesses answered in 
the affirmative.
    We would appreciate your limiting your verbal comments to 5 
minutes. Your entire written statement will, obviously, be 
entered into the record.
    Ms. Muniz, you're now recognized for 5 minutes. Bring those 
mics right up close. We need the projection, plus we need it 
for the--there we go. Thank you.

                       WITNESS STATEMENTS

                    STATEMENT OF LYDIA MUNIZ

    Ms. Muniz. Thank you.
    Chairman Chaffetz, Ranking Member Cummings, and members of 
the committee, I appreciate the opportunity to appear before 
you today to discuss the U.S. Department of State's project to 
build a new U.S. Embassy in London. I'm Lydia Muniz, director 
of the Bureau of Overseas Buildings Operations at the U.S. 
Department of State.
    As the single real property manager for all U.S. Government 
diplomatic properties overseas, OBO manages the design, 
construction, acquisition, sale, and maintenance of the 
Department's worldwide property portfolio. That portfolio 
includes the property platform supporting 275 missions in 190 
countries and has over $14 billion in projects in design and 
construction.
    Like you, the State Department is deeply committed to the 
safety and security of our personnel serving abroad. Every new 
design and construction project that OBO undertakes meets the 
security and life safety standards required by law and by our 
team of experts in the Bureau of Diplomatic Security and within 
OBO. We work with DS at all steps of the process to ensure that 
security standards are met in our designs and that security 
considerations are addressed in our operations.
    In 1960, the Department of State opened a new U.S. Embassy 
in London located on Grosvenor Square. Not surprisingly, 
security and life safety standards have evolved significantly 
since that time and the Chancery does not meet current security 
and life safety standards. In addition, after more than 50 
years of occupancy, the facility has aged and is in need of 
extensive investments in infrastructure.
    In 2006, OBO examined several options to renovate the aging 
Chancery. At that time, a major rehabilitation of the facility 
was estimated to cost approximately $550 million and to take 
nearly 7 years to complete. The quandary was that even after 
such a significant investment, the Chancery would still not 
meet the most critical security standards.
    So OBO began exploring alternative solutions and in 2007 
developed a plan to finance a new embassy project through an 
innovative property swap of existing U.S. Government property 
in London. The solution would allow OBO to construct a new, 
safe, and secure Chancery using no new appropriated funds. As 
envisioned, the project remains financed entirely from the 
proceeds of sale of existing functional property, and I'm 
pleased to report that the project is on budget and on schedule 
to be completed at the end of 2016.
    Some have asked about the innovative design of the new 
London embassy. It is a strong design that meets not only the 
Department's high standards for security and safety, but also 
stringent local requirements for design and sustainability. It 
is essentially a steel-framed cube with a glass curtain wall. 
The project is efficient, makes maximum use of development 
rights on limited real estate, and makes use of best practices 
more than innovation.
    This committee has inquired about the use of glass curtain 
walls. Glass curtain walls are nonload-bearing exterior walls 
that typically provide for large, unobstructed spans of glass 
across multiple floors. Curtain wall systems have been used by 
the design and construction industry since the early 1900s, and 
the Department has used curtain wall systems in over a dozen 
embassy and consulate projects since the 1950s.
    Among the benefits of curtain wall systems when used with 
steel frame construction are that they are particularly 
efficient in terms of space utilization and can be erected 
faster than a built-in-place solution such as poured concrete, 
effectively shortening construction durations. More 
importantly, regardless of design or construction methodology 
and materials, all new U.S. embassies and consulates adhere to 
the same security and safety standards.
    When looking at the challenges of providing an updated 
facility in London, the Department could have simply stopped at 
an expensive major rehabilitation that would have been funded 
with appropriated dollars and still not resolved the 
significant security deficiencies. Instead, the Department 
developed an innovative financial and design solution that will 
provide for a modern, secure facility at no cost to the U.S. 
taxpayer. The development of creative solutions, mindful of 
limited resources, is what government should be about.
    We must protect our staff serving abroad, and using the 
lessons learned over decades, we can design and build embassies 
and consulates to better serve our mission and colleagues, are 
a better value to the U.S. taxpayer, and make better use of 
scarce resources in the short and long term. Security, safety, 
and excellence in diplomatic facilities are mutually 
reinforcing, not mutually exclusive.
    U.S. embassies the world over serve as visible reminders of 
America's influence and global diplomatic presence. They are 
symbols of America's culture and values. Just as importantly, 
they are safe, secure, and functional platforms from which our 
staff advance vital U.S. foreign policy objectives. With the 
depth and breadth of its responsibilities, our embassy in 
London will soon have a platform that does all of these things 
and that better supports their critical work with one of our 
oldest friends and most important allies.
    I look forward to answering your questions.
    [Prepared statement of Ms. Muniz follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
        
    Chairman Chaffetz. Thank you.
    Mr. Starr, you're now recognized for 5 minutes.

                 STATEMENT OF GREGORY B. STARR

    Mr. Starr. Chairman Chaffetz, Ranking Member Cummings, and 
distinguished committee members, good morning. And I want to 
thank you for your invitation to appear today to discuss the 
construction of the U.S. Embassy in London. I, along with my 
colleagues at the Department of State, look forward to working 
with you to examine the issue and illustrate how we 
collectively support the men and women who serve at this 
mission with a safe and secure facility.
    As the assistant secretary for diplomatic security, I work 
every single day with my colleagues to ensure a safe 
environment for our people. Environments in which we operate 
today require comprehensive planning, agile decisionmaking, and 
deft diplomacy. Most of all, they require us to be present, 
fully engaged, and 100 percent committed to the security of our 
people and our facilities.
    The U.S. Embassy in London is an exceptionally important 
platform for diplomatic and consular engagement to advance our 
national interests in this country. As you know, I work closely 
with my colleagues in the Bureau of Overseas Buildings 
Operations as the Department builds diplomatic missions that 
increase the safety and security, as well as meet rigorous 
security standards.
    Concerning the U.S. Embassy in London, DS has worked with 
OBO throughout the design and construction project to ensure 
that this project would be executed while meeting the security 
standards.
    As you know, the threats faced by the Department are ever-
evolving. In response to this changing environment, DS commits 
a significant amount of time and effort and energy towards 
research and evaluation in order to ensure our facilities are 
able to combat such threats. The outcome of this innovation 
provides DS with different designs and different building 
methodologies that accommodate the Department in these 
environments.
    We owe it to our diplomats, along with our security 
professionals in the field, to provide them with safe, secure 
platforms from which they can operate. I want to thank Congress 
for the resources and support that you have provided and look 
forward to your continued support in years ahead.
    Thank you. And I will be glad to answer any questions you 
have.
    [Prepared statement of Mr. Starr follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
       
    Chairman Chaffetz. Thank you.
    Mr. Linick, you're now recognized for 5 minutes.

                  STATEMENT OF STEVE A. LINICK

    Mr. Linick. Chairman Chaffetz, Ranking Member Cummings, and 
members of the committee, thank you for inviting me to testify 
about OIG's July 2015 audit of the new embassy compound in 
London and its implications for future Department of State 
construction projects.
    At a cost of more than a billion dollars, the London 
embassy project is among the most expensive embassies built by 
the State Department. Our audit had two objectives. First, we 
sought to determine whether the Department resolved security 
issues before allowing construction to begin associated with 
the exterior glass curtain wall on the outer facade of the 
Chancery building. Department policy required that those 
security issues be resolved before construction could begin. 
Second, OIG sought to determine whether the Department adhered 
to Federal contracting requirements in negotiating the price 
for the construction of the London compound when it accepted 
$42 million in additional contract expenses without obtaining 
sufficient justification for them.
    We found the Department's practices in both areas, the 
timing of the security certification and the acceptance of the 
added expenses, did not conform to applicable requirements. As 
a result, we made four recommendations which are in the process 
of being addressed by the Department. Two have been closed. Let 
me briefly discuss our security-related findings first.
    The Department's physical security standards require most 
new office buildings to provide adequate safeguards to protect 
people from the effects of explosions and projectiles. The 
exterior curtain wall at the London compound had to meet 
criteria that includes blast protection requirements.
    Within the Department, the Bureau of Overseas Buildings 
Operations, OBO, directs building programs and the Bureau of 
Diplomatic Security, DS, is responsible for overseeing new 
construction to ensure compliance with security standards. By 
statute, the Department must certify to Congress that a 
construction project for a new embassy will provide proper 
security before it undertakes such a project.
    The Department's published interpretation and 
implementation of the statute is contained in the Foreign 
Affairs Manual. It states that no construct should be awarded 
or construction undertaken before certification.
    Notwithstanding this policy, since at least 2003 the 
Department has followed the practice of authorizing 
construction contractors to begin work prior to certification. 
In the case of the London compound, the contract award, site 
work, and construction began many months before the Department 
certified the project to Congress in December of 2013 as 
providing adequate security protection.
    OIG is also concerned that the Department certified the 
safety of the project without obtaining blast testing results. 
The blast testing was not completed until May of 2014, more 
than 6 months after certification. As early as November 2012, 
DS notified OBO of its concerns with the curtain wall design 
and reiterated that a full blast test needed to be completed to 
ensure that the wall met standards. DS changed course after the 
director of OBO provided a written assurance shortly before 
certification that it would address any issues should the test 
fail. DS and OBO ultimately agreed that the curtain met 
standards.
    By initiating construction without first completing the 
blast testing, the Department committed itself to constructing 
a building that could have required significant redesign, 
potentially placing the Department and taxpayers at financial 
risk.
    Let me turn to OIG's second area of concern, the 
Departments contracting process. The Department initially 
targeted early 2017 as the move-in date for the London 
compound. To meet this target, the Department chose a new 
contracting strategy, the Early Contractor Involvement, or ECI, 
which was intended to shorten the time between design and 
construction by involving the construction contractor early in 
the process.
    London was the Department's first experience with ECI. 
Under Federal rules, a contractor using the ECI is required to 
submit two pricing proposals to the government. The first one 
is an initial target price for construction which is submitted 
at a point where project design is partially completed. The 
second one is a final price proposal submitted at a later stage 
of the design phase. Under the rules, the contractor is 
required to submit sufficient data to support any difference in 
price so the government can effectively negotiate a firm, fixed 
price.
    In the case of the London compound, the Department's 
contracting officer negotiated the final price of the contract 
without requiring the contractor to explain adequately a $42 
million difference between the initial proposal and the final 
proposal.
    In sum, our findings and recommendations, if implemented, 
will have a positive impact on future Department projects and 
reduce risk to taxpayers. Thank you again for the opportunity 
to discuss this work, and I look forward to addressing your 
questions.
    [Prepared statement of Mr. Linick follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   
    
    Chairman Chaffetz. Thank you.
    I'll now recognize myself for 5 minutes.
    Ms. Muniz, how is it that OBO started construction on this 
facility prior to having the security parameters in place? And 
how is it that the under secretary of management certifies to 
Congress that it's safe and secure but when they haven't 
completed all the security tests?
    Ms. Muniz. Let me take that question first and then I'll 
hand it over to Greg, who is the one who certifies and confirms 
that these projects meet all of the Department's 
securitystandards.
    I'd like to remind the committee that when a project is 
certified, what DS is doing and what, ultimately, the under 
secretary for management is doing is they are certifying a 
design. The design of the London embassy met all of the very 
stringent requirements that were provided by Diplomatic 
Security. It meets those using very complex calculations and 
running those calculations for hundreds, sometimes thousands of 
hours. So it is possible to confirm by calculation that designs 
meet the standards, and that's precisely what was done.
    Chairman Chaffetz. Why did you start construction prior to 
the DS certification?
    Ms. Muniz. I would argue that we did not start 
construction. I would argue that we awarded a construction 
contract as the Department has done since----
    Chairman Chaffetz. When do you think we----
    Ms. Muniz. --for the last 10 years.
    Chairman Chaffetz. When did you think we started 
construction?
    Ms. Muniz. So for years piling and doing the pile caps is 
considered part of the site work and the site stabilization.
    Chairman Chaffetz. Okay. So let me run you through a couple 
pictures. These are pictures provided by State Department on 
your Flickr account.
    [Slide.]
    Chairman Chaffetz. Are you telling us that that's not 
construction?
    I have three pictures here I would like to show you. And 
what we've been told is these pictures are dated by State 
Department on the State Department Web site prior to the 
certification. And that's what the inspector general's--I mean, 
it didn't come to our attention but for the inspector general, 
and you don't seem to agree with it, and we're confused by 
that. We're supposed to believe that that's not construction.
    Go to slide number 2.
    [Slide.]
    Chairman Chaffetz. That to me seems like an awful lot of 
work going on and a lot of construction, and you don't believe 
that that's--you telling us that's not construction?
    Ms. Muniz. I agree it is an awful lot of work. But under 
the definitions that we use and have used for years with 
Diplomatic Security, we do site pilings, and we cap those 
pilings to stabilize the earth, the soil, and the site before 
we come out of the ground.
    Chairman Chaffetz. Go to the next slide.
    [Slide.]
    Ms. Muniz. This exact process has been followed with the 
standard embassy design for 10 years--over 10 years--exactly 
the same process of awarding contracts, of doing site work, and 
then of coming out of the ground after certification.
    Chairman Chaffetz. We've never built a building like this. 
You've never used a blast wall like this. It had not been 
certified, it had not gone through the testing. When I went to 
London and talked to the people on the ground, they said we've 
never built anything like this.
    And the point the inspector general is making, I'd like to 
get his comments on this, is you're taking a huge risk. That, 
to me, looks like construction. And you're saying that, well, 
it's done in the past, it's not construction.
    Mr. Linick, is that construction? Does that put us at risk? 
What if that hadn't passed this test?
    Mr. Linick. Well, when you----
    Chairman Chaffetz. Go ahead, Mr. Linick.
    Mr. Linick. When you look at a picture like that, to me, 
that does look like construction. But from the point of view of 
our report, it's really irrelevant, because the Department's 
own published policy, the FAM, says you can't even award a 
contract, okay, or undertake and initiate construction prior to 
certification. So, in my view, that means no activity should be 
occurring based on their own published policies, which are the 
official interpretation of the statute which Congress pasted.
    By initiating construction prior to certification, prior to 
testing, what you're doing is committing to a course of 
construction, committing to a building that may have to be 
redesigned if the blast testing fails or if certification 
doesn't work. And that's primarily our concern, is that the 
Department needs to take into consideration the risk to 
taxpayers as a result of a failure of testing.
    I don't know what would have happened in this case had 
blast testing failed. It's not clear to me. But this has 
implications not just for this embassy, but really for future 
projects.
    Chairman Chaffetz. And that is the key to why we're here.
    Mr. Starr, I'll give you a chance to answer. My time is 
expiring. But this picture was taken weeks before you even 
started your testing.
    Mr. Starr. Sir, those photographs are dated 2014. I 
certified that building in December of 2013.
    Chairman Chaffetz. Keep going.
    Mr. Starr. In addition, I want to make something clear, 
that for years, we have done something called soil 
stabilization, as Lydia Muniz was referring to. Your first 
photograph is closest to what we allow to occur before we 
actually start to construct the building. We will not let OBO 
start constructing the foundation of the building, even the 
foundation, before certification. We do permit them to do soil 
stabilization----
    Chairman Chaffetz. Was your blast test--let me--was your 
blast testing done before that date?
    Mr. Starr. No, sir. But I'd like to talk about that as 
well----
    Chairman Chaffetz. But that's the point. That's the point.
    Mr. Starr. --because there is no requirement to do blast 
testing. Sir, there is no requirement----
    Chairman Chaffetz. You're here to tell me as the head of 
Diplomatic Security you're not required to do blast testing?
    Mr. Starr. No, sir.
    Chairman Chaffetz. You need a piece of legislation that 
tells you we're going to have to do blast testing?
    Mr. Starr. No, sir. If I could explain.
    Chairman Chaffetz. Yes. But don't come before us and tell 
us that you had certified that building. That's not what the 
inspector general had found.
    Mr. Starr. No, the----
    Chairman Chaffetz. You had not done the blast testing when 
that--look how far developed that was. They didn't whip that up 
in 2 weeks.
    Mr. Starr. Sir, if I may explain. For most of 2013, my 
staff went back and forth with OBO and did not certify the 
building based on the original designs that we got. We did have 
questions about the design of that building. OBO and the 
architects and the blast consultants went back many times from 
the original designs and looked at it and closely evaluated how 
to build that building to meet our standards--to meet our 
standards.
    In late November of 2013, in late November and in early 
December, I sat down with my entire staff, I sat down with OBO, 
we sat down with the architect of record, and we sat down with 
the Weidlinger company, which was the architect of record's 
blast consultant, one of the absolute most experienced, best 
blast consultants in the world, bar none. The question that I 
needed answered to me before I would certify that building was 
will that building as it is currently designed meet our 
standards, our forced entry standards, our blast standards. 
Weidlinger, the architect of design, and my own people said, 
yes, it will.
    Chairman Chaffetz. When was that?
    Mr. Starr. In late November and early December of 2013.
    Chairman Chaffetz. Then why didn't you do any blast 
testing?
    Mr. Starr. Sir, we learn things from blast tests. I also am 
a little bit from the, I don't know, from the Missouri school, 
I want to be shown that things actually do it. But when I have 
the architect of record and perhaps the best blast engineering 
company in the world, Weidlinger, telling me that this building 
will protect our people, absolutely will protect our people, 
that is a promise that they're saying and putting in writing. 
And, therefore, I can sit there and I can write a certification 
to you, a promise that the facility resulting from the project 
is going to protect our people adequately.
    Now, we wanted to blast test it anyway. We scheduled those 
blast tests shortly after that. We learned things from blast 
testing. In the lay-ups of the blast testing we actually used 
glass that was thinner, we used glass that was the same, we 
used glass that was thicker. We learn things from blast 
testing. And, ultimately, when we blast tested the full lay-up, 
it confirmed exactly what the engineers had said: It passed.
    Chairman Chaffetz. That's not true.
    Mr. Starr. Yes, it is.
    Chairman Chaffetz. You had failures during these blast 
tests.
    Mr. Starr. No, sir.
    Chairman Chaffetz. You're telling me there were no failures 
in these blast tests?
    Mr. Starr. I am telling you that.
    Chairman Chaffetz. No, were there any failures on these 
blast tests?
    Mr. Starr. Component tests, pieces of glass that we tested, 
including some that were less than what we were putting up, 
including some that were less, failed.
    Chairman Chaffetz. There you go.
    Mr. Starr. Pieces that were less than what we were doing, 
sir. We do blast testing to learn a lot of things. We find out 
a lot from it. The full-scale mockup of the building that we 
did passed every single test with flying colors.
    Chairman Chaffetz. After you had started the construction.
    Mr. Starr. Reaffirming what the architects and the blast 
engineers gave us in writing saying absolutely this will pass.
    Chairman Chaffetz. My apologies to my colleagues. I do not 
want to take so much time. I want to give you the latitude to 
offer those types of answers.
    You have a very skeptical Congress who thinks you're 
gambling with a lot of money and a lot of commitment here. At 
the same time, you have an inspector general that finds it's 
not in compliance with the law, not in compliance with your own 
internal standards. And you're here to try to convince us, 
based on those three photos, that that's not actually 
construction. And that's why we're having this meeting.
    Mr. Starr. I understand that, and I appreciate the 
opportunity to----explain myself
    Chairman Chaffetz. Let me go to my ranking member, Mr. 
Cummings.
    Mr. Cummings. Mr. Starr, let's be clear, you had said that 
the pictures were taken, according to the dates, in 2014. Is 
that right?
    Mr. Starr. 2014.
    Mr. Cummings. And your certification came in 2013. Is that 
correct?
    Mr. Starr. Yes.
    Mr. Cummings. Now, were there a series of tests leading up 
to the major blast test?
    Mr. Starr. Yes.
    Mr. Cummings. Can you explain that? Because we need to--I 
need to understand exactly what goes into the certification 
process. If you can do it briefly.
    Mr. Starr. The certification process does not require us to 
do blast testing. I mean, literally, we could have just 
accepted the engineer's and the architect's and the blast 
consultant's and say, yes, this meets standards. We do this in 
many cases.
    In this case, because the windows were very large, we 
decided we're going to blast test this anyway. We did some 
component testing before. And, as the chairman says, there's a 
report. One of them says that it's inconclusive. We actually 
had overpressures that were higher than what we needed to test 
to and we had pieces of glass that were actually less robust 
than what we built this building with to test them.
    We learn things from that type of testing. When we did the 
full-scale mock up, as the engineers had predicted and had 
certified to us, it passed with flying colors.
    Sir, we promise that we are going to build a building that 
meets our standards. We are building a building that meets our 
standards.
    Mr. Cummings. All right. Now, there has been a lot of 
discussion about how the London embassy will look rather than 
how it will function. But if you're sitting inside the embassy, 
whether it has a glass wall or cement wall or some other wall, 
the issue is the same, you want to know that you are protected. 
Am I right?
    Mr. Starr. Yes.
    Mr. Cummings. Is your mic on?
    Mr. Starr. Yes, sir.
    Mr. Cummings. So I would like to clarify. So there's no 
remaining doubt that the new London embassy will protect the 
men and women who work there. Is the new London embassy project 
meeting all the State Department security requirements to date?
    Mr. Starr. Yes, it is.
    Mr. Cummings. Now, Ms. Muniz, would you agree with that?
    Ms. Muniz. Yes, it absolutely is.
    Mr. Cummings. Now, the glass curtain wall of the building 
has been an issue for us for some time on this committee. So I 
would like to be clear on that wall. Mr. Starr, does the glass 
wall surrounding the embassy structure meet all the State 
Department-specified security requirements?
    Mr. Starr. Yes, it does.
    Mr. Cummings. Has it passed all the requirement in the 
blast test?
    Mr. Starr. Yes, it has.
    Mr. Cummings. Director Muniz, does the glass wall support 
the structure of the building or is it an external layer of 
protection?
    Ms. Muniz. It's an external layer. Curtain walls are 
differently than a window wall. A curtain wall is not load 
bearing. In other words, the wall could be removed and the 
structure would be intact.
    Mr. Cummings. All right. And are you confident in the 
performance of all the components of the wall, including the 
panels, the fasteners, and other materials?
    Ms. Muniz. I'm very confident.
    Mr. Cummings. Are you, Mr. Starr?
    Mr. Starr. Yes, sir, I am.
    Mr. Cummings. All right. The Department's security 
requirements include certain features that all new embassies 
must meet, including setbacks from the street of at least 100 
feet, anticlimb and antiram features, and other physical 
properties. Is that right, Mr. Starr?
    Mr. Starr. Yes, sir, that is correct.
    Mr. Cummings. In addition to these standard baseline 
requirements, you testified in your previous hearing on July 9 
that you also adapt security requirements depending on the 
context, the threat, and the environment in each case. For 
example, for our facility in Afghanistan, you stated, and I 
quote, ``We constantly examine our security methods to adapt to 
an evolving threat environment.'' You also said that you, and I 
quote, ``scrutinize the environment in Afghanistan, our 
security footing, to seize opportunities to improve security 
where possible,'' end of quote. Now, is that right?
    Mr. Starr. Yes, sir, it is.
    Mr. Cummings. How do you go about doing that?
    Mr. Starr. We look at what types of attacks we are likely 
to be subjected to. We look at the theater that we're operating 
at. We look at what weapons, terrorists, and others have in 
their hands and how they could attack us. We look at terrorist 
tactics and procedures. And then we make determinations, in 
addition to our physical security measures that are our 
baseline standards, of other things that we may have to do.
    In certain cases, we are using overhead cover to ensure 
that mortar attacks and rocket attacks are protected from. In 
certain cases, we have things like radar warning systems that 
give us time in advance when we're being attacked for people to 
take cover and duck-and-cover systems. These are examples of 
things that we look at, depending on what country we're in and 
where we're at, and then how we try to mitigate the threats.
    Mr. Cummings. When you're looking at what happened in 
Paris, is there anything--and I don't want to get into any kind 
of secret information--but is there anything that we could 
learn from that that would affect the embassy, the building of 
the embassy, at all?
    Mr. Starr. No, sir.
    Mr. Cummings. Because of the type of attack, I take it.
    Mr. Starr. No, we have seen those types of attacks before. 
Those attacks were effective because they were attacking soft, 
unhardened targets without protection. It really does not apply 
to better protected facilities.
    Mr. Cummings. I got you. And does the new London embassy 
project meet both the overall security standards and any 
environment-specific requirements you believe are necessary?
    Mr. Starr. Yes, sir. We looked closely at London. We look 
at our security standards. The facility, as I said, in the 
certification under Public Law 100-204, as amended, that 
facility resulting from this construction project will meet our 
standards and will provide the adequate safety and security for 
our personnel in that facility.
    Mr. Cummings. Do you agree, Ms. Muniz?
    Ms. Muniz. I do.
    Mr. Cummings. Now, Mr. Linick, you've heard all of this, my 
line of questioning. Do you disagree with anything that has 
been said by either Mr. Starr or Ms. Muniz?
    Mr. Linick. Our work did not assess whether it's safe and 
all of that. So I have no reason to dispute that.
    Mr. Cummings. Very well. Very well.
    One other thing, Mr. Starr. Yesterday--I'm going back to 
the Paris incident--but yesterday I had to do a speech at a 
building directly across the street from the FBI building. And 
while I was waiting to park, I just noticed that there are 
just, I mean, just lines of cameras, which I would have 
expected, in front of that building and all around it as a 
matter of fact, cameras everywhere. And I was just thinking 
about the Paris piece. I mean, do we--do you all worry about 
those kinds of attacks at all?
    Mr. Starr. Yes, sir. There are attacks that are--we have 
suffered in the past. If you remember the Jeddah attack on our 
consulate, there were armed gunmen with AK-47s and explosives 
that came in, they breached our perimeter over the wall. 
Because of our security standards, they never got into our 
facility, and the Saudi forces and our guard forces effectively 
terminated that. The same thing happened in Herat, in 
Afghanistan.
    We're aware of those types of attacks. We believe that we 
have the proper security in place to defend against them.
    Mr. Cummings. Now, can you talk briefly about this $42 
million? That's a lot of money. I mean, Americans looking at 
this would say, you know, $42 million overrun--is that right, 
Mr. Linick, is that the right, proper description of it, the 
$42 million, do you want to call them change orders? What do 
you want to call them?
    Mr. Linick. The $42 million was an increase in price which 
was not justified and it was accepted by the Department. So we 
just don't know whether the $42 million is supported with 
accurate data.
    Mr. Cummings. Would you comment on that, Ms. Muniz? Either 
one of you?
    Ms. Muniz. I'd be happy to. I'm not sure what this $42 
million is about. What I do know is that when we first notified 
this project to the Hill and, in fact, when we first notified 
the acquisition of the site, this project is $30 million under 
those initial notifications and continues to be $30 million 
under.
    Mr. Cummings. Do you have a comment on that, Mr. Starr?
    Mr. Starr. No, sir. No, I'm not familiar with that. That's 
out of my security realm.
    Mr. Cummings. Can you all get your numbers together then? I 
mean, it sounds like you're saying one thing, Mr. Linick, she's 
saying another. She's talking about 30 under, you're talking 
about 42 over. Hello?
    Mr. Linick. Yes. Congressman, the $42 million, actually OBO 
was asking for information to support that figure and they 
weren't getting it. And the contracting officer misinterpreted 
the law and didn't realize that he was supposed to get that 
information from the contractor. This was at OBO's request. And 
OBO, to my knowledge, still is not satisfied with the 
justification of that $42 million.
    Mr. Cummings. Yes, Ms. Muniz?
    Ms. Muniz. I believe what Mr. Linick may be talking about 
is the fact that when we used ECI, the Early Contractor 
Involvement, the reason we did that is that to the degree that 
you can involve the contractor much earlier in the design 
phase, you can resolve a lot of issues that would later become 
issues during construction. So it's a way of getting the whole 
team involved very early.
    It is the case that in an ideal circumstance, using ECI, 
this contracting method, we would have had more pricing 
information from the contractor. And we did try to obtain that 
additional pricing information. So I think that's quite right. 
And that is a tool that we're trying to improve and that is 
actually an improvement over our prior program where we did not 
have Early Contractor Involvement.
    It is, however, the case that our estimates of the 
construction contract and of the total project budget are still 
on target. And, in fact, our budgets are coming in, we're 
coming in $30 million under our initial proposal.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. I now recognize Mr. Mica of Florida.
    Mr. Mica. Thank you, Mr. Chairman.
    Well, we're spending a lot of money on this facility. I 
guess it's in the billion-dollar range, if that's correct. And 
we're designing it--well, it was designed an unsafe or unsecure 
manner based on some requirements that we should be following. 
We have--State relies on--the State Department relies on an 
unpublished 2003 draft memorandum between the Bureaus of 
Overseas Buildings Operations and Diplomatic Security rather 
than Federal law and FAM. Is that correct?
    Mr. Starr. In any discussion of whether a FAM or Federal 
law takes priority, Federal law takes priority.
    Mr. Mica. But it doesn't appear that, again, that there was 
proper procedure and proper consideration for security given 
the final design.
    Mr. Starr. Sir, I disagree with that. I think that we fully 
complied with the law, absolutely.
    We do have one portion of the FAM that I think has not been 
updated since 1993. And in particular, in the early 2000s, when 
we were using standard embassy design, that is a design-build 
methodology of receiving the project, as opposed to design-bid-
build, the FAM says we're not supposed to sign a contract 
beforehand. In fact, that does need to be modified in the FAM. 
The law says nothing about that. But we are----
    Mr. Mica. Okay. So that's a recommendation to avoid the----
    Mr. Starr. Yes, that is one of the recommendations from the 
inspector general and we are addressing that.
    Mr. Mica. I think that's very important.
    Again, we're--you know, the thing is under construction and 
the design is there. This was built to the Inman 
specifications?
    Mr. Starr. It goes all the way back to the Inman 
specifications. And then we've gone through several iterations 
of this, finally culminating with P.L. 100-204 that gave us 
directions that we need to certify in advance of the 
construction of the building that the facility is going result 
in a building or a facility that's safe for our classified 
information, our national security activities, and our people.
    Mr. Mica. And the new design, does that include all of the 
embassy functions? Are there other functions, like Foreign 
Commercial Service operations, in other facilities around 
London? I'm not familiar with what we've got outside of the 
embassy there.
    Mr. Starr. There were other embassy functions in the--what 
was called the Navy Annex. We were not co-located, that is 
another law that Congress has passed, that we must have 100 
feet of setback for every facility that we build and we must 
co-locate everybody in the facility----
    Mr. Mica. But do we rent other----
    Mr. Starr. --and they were not co-located in the old 
facility.
    Mr. Mica. But they will be co-located in this facility?
    Mr. Starr. Yes, sir.
    Mr. Mica. How about Foreign Commercial Service operations?
    Mr. Starr. Yes. Off the top of my head, I can't name every 
agency that will be in the new facility, but we have----
    Mr. Mica. And will there be--my other question--will there 
be some outside?
    Mr. Starr. No.
    Mr. Mica. I visited Paris, I went to the Paris Air Show and 
then spent a day looking at our facilities in Paris, because we 
knew after Hebdo that it could be a target. And they chose not 
to go after the hardened targets now, you know, a cafe, or a 
restaurant, a theater. And people at a Christmas party are 
their new targets.
    But any other recommendations you have in changing the law 
so that we don't have the hiccups we have with this particular 
project?
    Mr. Starr. No, sir.
    I would like to say something. Since 1985 and the Inman 
Commission, we've gone through a series of processes, like 
having the Overseas Security Policy Board set security 
standards for new construction. We've had laws passed that 
require us to co-locate our personnel and have 100 feet of 
setback or in new construction. Only the Secretary of State can 
waive that. We are required to tell Congress in advance of 
starting the construction of the actual building that the 
building will result in a safe and secure facility.
    We have since, well, since I've been on board, we have 
never breached that trust and we never will. Every building 
that we build will meet the security standards. We are getting 
the funding from Congress not because we need to replace out-
of-date buildings, because the buildings are insecure. That's 
why Congress gives us the funding. This particular project is 
not using appropriated funding. It's using proceeds of sale. 
But I assure you also that we would never build a building that 
will not be safe and secure for our people, our national 
security----
    Chairman Chaffetz. Well, with all due respect, if the 
gentleman will yield, the problem is when you have a facility 
that the life expectancy is less than 10 years, it's a 
different set of standards. And that's not what happened in 
Benghazi. That's not what happened in Tripoli. You did not 
erect a facility in Tripoli that was secure. It was the biggest 
embarrassment to this government. I've been there. I've seen 
it. You cannot tell me that you've done that every single time 
when people were killed in those facilities.
    Mr. Starr. Sir, you are correct that the Benghazi facility 
did not meet the standards. We did not build that facility. 
There's a difference between when we have to go places and 
sometimes accept what we can lease and try to upgrade it in the 
meantime.
    My promise to you is then when we build a facility----
    Chairman Chaffetz. What would you consider Tripoli?
    Mr. Starr. Tripoli, we leased----
    Chairman Chaffetz. Okay. But this is the problem. You take 
an American and you put him out there, they're in a very 
difficult circumstance, we need our diplomats out there 
engaging with these people. Do you think they care that there's 
a difference whether you built it or somebody else built it? 
You're certifying that it's secure and you don't do that on a 
regular practice. It is regular practice to offer waivers. In 
fact, one of the waivers we're looking at here happened in 
London.
    So that's why we keep having these hearings. Don't lead 
this Congress to believe that every facility we put people into 
is safe and secure when you offer waiver after waiver after 
waiver, because you did it in Tripoli, You did it in Benghazi, 
and you've done it before in other places.
    Mr. Starr. Sir, I agree. No one is more cognizant of what 
happened in Benghazi than I am. No one is more cognizant than I 
am in the Department----
    Chairman Chaffetz. You just sat here before us and told us 
every building we put people in----
    Mr. Starr. We build--sir, sir, please----
    Chairman Chaffetz. And that's mincing words.
    Mr. Starr. No, it's not.
    Chairman Chaffetz. That's not being honest and candid with 
the American people and with this Congress.
    Mr. Starr. Sir, it is not mincing words. I am being exact. 
When we build a new facility from scratch----
    Chairman Chaffetz. What do you tell the kid from Tennessee 
that you send overseas----
    Mr. Starr. May I answer?
    Chairman Chaffetz.--well, we leased this one, so it's not 
as secure. What do you tell that family?
    Mr. Starr. Congressman, may I answer the question? Public 
law says when we build a new facility--and we've had, thanks to 
Congress, a new embassy construction program for many years--
every single one of those buildings that we build new meets 
every one of those standards. We don't waive things.
    When we have to accept--Congressman, please--when we have 
to go into different places and lease a facility that we know 
doesn't meet our standards, we try our best to upgrade it. We 
try to provide other methods of mitigating the threat, whether 
it's U.S. Marines, whether it's Diplomatic Security agents. 
Sometimes we use temporary barriers around them.
    I cannot make a leased facility that has never been--never 
been designed to meet blast standards or setback meet blast 
standards or setback. There's a difference between when we 
build new--and that's what you ask us to certify--when we build 
new, then we have to go out on more or less an expeditionary 
basis and lease something. The facilities that we had in 
Tripoli and Benghazi did not meet the new embassy construction 
standards and do not.
    Mr. Mica. I yield back.
    Chairman Chaffetz. Before the gentleman yields back, are 
there any waivers in Jakarta? The answer is yes.
    Mr. Starr. No, I don't----
    Chairman Chaffetz. And you're building that facility.
    Mr. Starr. I don't believe there are waivers in Jakarta.
    Chairman Chaffetz. Okay. You give us a list of new 
construction waivers and you put in writing that that number is 
zero, because that is not true.
    Mr. Starr. Sir, every year we provide a report to Congress 
on any waivers that we have given for new construction. We 
provide it every single year.
    Chairman Chaffetz. You give this committee--is that fair 
enough--you give that information to this committee.
    Mr. Starr. We give it to our committees, the Senate Foreign 
Relations Committee, the House Foreign Relations Committee, the 
Appropriations----
    Chairman Chaffetz. Will you give that to our committee?
    Mr. Starr. Absolutely.
    Chairman Chaffetz. Thank you. And the reason you're here is 
you have an inspector general saying you're not abiding by 
Federal law.
    So our time has gone well past. Ms. Maloney from New York 
is now recognized for a very generous 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman, for calling this 
important meeting.
    And I'd like to ask Assistant Secretary Starr, our number 
one focus is to protect the men and women who are serving our 
country overseas. And is this facility secure? Are they 
protected in this London facility that you're building?
    Mr. Starr. In the new facility that we're building, yes.
    Mrs. Maloney. Is it one of the most secure embassies in the 
world now with the new technologies?
    Mr. Starr. It will be, yes.
    Mrs. Maloney. It will be one of the most secure in the 
world.
    So the bottom line that we're looking at, going forward, we 
have to make sure that they are secure, and you're testifying 
that this is one of the most secure sites in embassies in the 
world.
    Mr. Starr. Yes.
    Mrs. Maloney. Well, thank you for that.
    But I do want to point out that President Obama, in his 
speech last night, talked about the evolving threat of 
terrorism. It's not just what we face today, it's what's going 
to be tomorrow, what the new technique's going to be. And he 
said, and I quote, ``The terrorist threat has evolved into a 
new phase,'' end quote.
    So I want to know how are we responding to these new phases 
as a result of new technologies or whatever is going forward. 
So I'd like to ask you--well, I guess it was, your report, Mr. 
Linick, your report highlights the importance that research and 
development and testing is important for innovative development 
designs. That's what you were stressing in your report. Is that 
correct, that you have to have these new technologies and 
testing for the new technologies and emerging threats?
    Mr. Linick. Congresswoman, our report didn't assess whether 
innovation is necessary or not necessary. Our focus was narrow 
in that we looked at whether or not the security issues were 
resolved before construction, before contract award. That's 
what we looked at, and we also looked at the contract. So I'm 
not in a position to tell you whether we need innovation, et 
cetera.
    As far as testing goes, my only point with that was that 
the testing of the glass curtain wall didn't occur for 6 months 
after certification, and it was our opinion that it ought to 
have occurred before certification because we fail to see how 
you can certify something is safe without, you know, making 
sure that it passes the blast test.
    Mrs. Maloney. Well, then, Assistant Secretary Starr, there 
is a need, would you say, for research and development. And I 
understand there's a research and development group within the 
Diplomatic Security. Is that correct?
    Mr. Starr. Yes, Congresswoman, it is.
    Mrs. Maloney. Okay. And I understand that a lot of what 
this unit develops may be classified, but can you give this 
committee a quick overview of the type of other research or 
methods that DS, or development security, is--diplomatic 
screening and security is developing?
    Mr. Starr. Congresswoman, thank you for the question.
    We work, sometimes by ourselves, sometimes with the Defense 
Threat Reduction Agency, sometimes with the National Labs, and 
we--our buildings meet higher standards for our security 
standards--and I don't want to go into exactly what they are--
than any type of commercial building. And in order to do that 
we had to develop new types of products.
    I can tell you that one of the products that we developed, 
if you look at the first generation of embassies that we built 
from 1988 to 1992 that withstood blasts, the windows were about 
2 feet by 2 feet and they were about 5 inches thick. Today we 
can build windows, we have windows and commercial contractors 
build them for us now, that are, you know, 6 feet by 8 feet 
that meet the blast requirements. And that has further 
developed to the point where we are building the embassy in 
London and Jakarta where the curtain wall is actually all glass 
and yet still meets those blast requirements.
    These are the types of things that, as we go forward 
building new buildings, give us different options to build 
while still meeting very rigorous security standards.
    Mrs. Maloney. That's good to hear, that you're focusing on 
this blast response. But can you elaborate on how the State 
Department is utilizing other creative solutions to adopt to 
the ever-evolving threat requirement that we have around the 
world for our embassies? Ms. Muniz or Mr. Starr, either one.
    Ms. Muniz, since we've heard from the other two panelists.
    Ms. Muniz. Let me respond first to your earlier question 
about the importance of looking at new materials and--new 
materials for the State Department in any event.
    Curtain wall technology is really the predominant 
technology that is used to build what we call high-rise 
buildings, and high-rise is defined as anything above seven 
stories.
    What we found as we were moving forward in our construction 
project is that--in our construction program, rather--is that 
increasingly it was difficult for us to find large sites in 
cities that are quite developed and where real estate is quite 
expensive. So it was really in our interest and the 
Department's interest to take advantage of technologies that 
would allow us to build buildings higher and to do that 
efficiently and economically. So that is the benefit of testing 
new products or using new products to new standards, such as 
curtain wall, though, again, curtail wall has been in use in 
the construction industry since the early 1900s.
    With respect to the types of flexibility that we build into 
our buildings, I'll address first what we do that is 
nonsecurity related, and then we'll turn it back to my 
colleague, Mr. Starr.
    The Excellence initiative, we've tried to look at a lot of 
things that are used in industry quite skillfully to make 
better use of our buildings and make them endure longer. So we 
have used raised floors and demountable partitions rather than 
hard partitions so that if we need additional staff or 
reconfiguration, it can be done quickly and easily at very 
little expense.
    We've also looked, to the degree possible, building in as 
much efficiency and sustainability as we can to drive down 
operating costs. That's also an important factor when we select 
our sites. So we are picking sites that are increasingly closer 
to the colleagues that our diplomats work with in order to 
drive down the operating cost of shuttling them 30, 45 minutes, 
sometimes an hour to visit their colleagues.
    So all of these things combined--additional flexibility, 
technologies that will help us build faster, but also building 
in places where we can have our diplomats close to the 
colleagues and the people they need to work with--those are all 
things that the program is focusing on.
    Mrs. Maloney. Well, thank you for your hard work.
    My time has expired. Thank you.
    Chairman Chaffetz. Thank you.
    We'll now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    We hear a lot about construction today. Obviously, it's a 
very important topic. But I believe today's hearing is also 
about the process, it's about accountability, it's about 
transparency.
    In 2013, December 2013, the under secretary for management 
certified to us in Congress that the State had ensured the 
adequacy of all safety-related measures. In fact, the DS had 
expressed concern about State's use of computer modeling to 
simulate this blast testing for the curtain wall, and they 
ordered a full mockup blast test before certification was 
appropriate.
    The problem is, is that testing did not start until 
February 2014 and was not complete until May of 2014. It is not 
clear in the certification package to Congress that State 
provided notice that blast tests was ongoing. And here's the 
questions. There's a couple of them.
    Did State's certification to Congress in December 2013 
explicitly alert the committees that State had not even begun 
blast testing?
    Ms. Muniz, I'll start with you.
    Ms. Muniz. I'm not certain that it did, that we were very 
clear about when blast testing was going to happen in the 
succession of the project.
    I'd also like to add that certification is done of the 
designs of a project, and those designs were stamped, and by 
calculation all of the designs met the rigorous requirements 
established by Diplomatic Security.
    Mr. Walker. So when you say that all safety measures have 
been completed, you're just saying that's a certification with 
the projection that they will be completed. Is that my 
understanding?
    Ms. Muniz. I'm not sure I understand your question. Let me 
frame it this way. So when a building is certified--and then 
I'll turn it over to Mr. Starr, who--DS is responsible for 
those certifications and for their reference to the under 
secretary for management.
    Certification is done of designs of building. By design, 
engineers calculate that designs meet any of the requirements, 
including blast loads. That was done prior to the certification 
of the London embassy project.
    Mr. Walker. Mr. Starr.
    Mr. Starr. Congressman, essentially, certification is a 
promise to Congress. You've given us the resources, and you 
want to know that we're certifying to you, in advance of 
starting the building of the building, that the facility 
resulting from the project is going to be safe and secure. It's 
a promise.
    We can fulfill that promise many different ways. In some of 
the standard embassy designs, when we were first looking at the 
standard embassy designs, we were a little nervous about some 
of the things, and we certified them based on what the 
architects were telling us, and we could look at concrete and 
we could look at steel and pretty much figure it out.
    As we go forward into newer types of methodologies, we do 
rely on our architects, and, as I said, quite possibly the best 
blast architecture firm in the world, Weidlinger, and telling 
us, yes, this design meets your standards; this design will 
surpass your standards. And I can take that and promise to you, 
promise to Congress the facility resulting from this design is 
going to meet our standards.
    Well, we went even further than that afterwards and blast 
tested it just to ensure that their calculations were correct, 
and in fact they were.
    Mr. Walker. Did it show the highlights or highlight 
weaknesses in the design? In other words, did it include a 
memorandum from the Office of the Director of National 
Intelligence in which the Office notes that should blast 
testing highlight weaknesses in the design of the curtain wall, 
Director Muniz has confirmed in writing that all necessary 
steps will be taken to rectify the issues?
    Can you confirm here today that Congress received that memo 
with the December 2013 confirmation, Ms. Muniz?
    Mr. Starr. I don't think we sent that to Congress, sir. 
What we did was certify that the design met the requirements. 
And we also talked about, well, if the blast testing showed 
that it didn't, what would we do, even though the engineers 
were fully saying, yes, it would.
    Mr. Walker. Let me ask Mr. Linick.
    Did you know whether Congress received the Office of the 
Director of National Intelligence memo in December 2013 with 
State's verification package?
    Are you saying, Mr. Starr, that you never sent that to 
Congress?
    Mr. Starr. I'm trying to remember the actual package. I 
know the certification is signed by the under secretary for 
management. I don't think--I think the certification says that 
we've consulted with ODNI on this. I'm not sure that in the 
package that we send to you that we actually include the memo 
from ODNI.
    Mr. Walker. Mr. Linick, do you recall? Mr. Starr doesn't 
remember.
    Mr. Linick. It's not clear to me whether the certification 
package advised Congress that testing would occur after the 
certification.
    Mr. Walker. Mr. Chairman, my time has expired and maybe 
follow up with someone else, but thank you.
    Mr. Starr. Congressman, if you'd like, I will get back to 
you with an answer afterwards, whether the package we send to 
Congress actually has the ODNI letter or not, if you'd like.
    Mr. Walker. Can you give me a time for when you're able to 
do that? A week? Two weeks?
    Mr. Starr. I can find out by tomorrow and give your office 
a call.
    Mr. Walker. Thank you, Mr. Chairman.
    Chairman Chaffetz. If the gentleman will yield.
    Mr. Walker. Absolutely.
    Chairman Chaffetz. Mr. Starr, you're taking great liberties 
that I think are well beyond your ability to back them up to 
suggest, quote, ``Engineers fully said it would,'' end quote. 
It was not unanimous. All the engineers did not line up and say 
this meets every standard.
    And what I point to is Mr. Linick's report. Go to page 9 of 
the audit itself. It goes through the audit results.
    Mr. Linick, please clearly tell us, in your opinion, did 
they or did they not violate their own internal policies on 
what they should or should not be doing and when they should do 
it?
    Mr. Linick. They clearly did violate their policies, the 
FAM, by certifying after contract award and after construction, 
and that's the basis of our finding, finding A. This is an 
issue that doesn't just affect the London embassy, but also 
other embassies as well.
    The question Congress should know, what constitutes 
construction when certification is occurring, there should be 
transparency in the process so Congress knows exactly what 
rules the State Department's relying on when it undertakes 
construction and when it certifies.
    So that's really--that's the essence of our report and 
finding.
    Chairman Chaffetz. And, Mr. Starr, to suggest that 
government buildings are more secure than any--the 
representation you made--than any private sector building on 
the face of the planet? You cannot get away with saying that.
    There a lot of buildings out there going to be a lot more 
safe and secure using different materials and different--why do 
you make such sweeping generalizations when you know they can't 
be backed up? That's something the committee needs to report.
    Mr. Starr. I said that our----
    Chairman Chaffetz. No, we'll pull back the record.
    Mr. Starr. Congressman----
    Chairman Chaffetz. You're just overstepping your bounds.
    Mr. Starr. Congressman, I am not----
    Chairman Chaffetz. No, you're trying----
    Mr. Starr. I am----
    Chairman Chaffetz. I am not calling on you right now. We're 
calling on Mr. Welch.
    Mr. Welch is now recognized for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman.
    And this issue of embassy security obviously is very 
important. I appreciate the work you're doing.
    Mr. Chairman, I appreciate the work you're doing, and I 
enjoyed my trip to Libya with you to inspect an embassy.
    You've got a tough job, and I think we appreciate that. 
I've got a couple of areas of questions. One is taking up on 
what Mr. Cummings started on about the 100-foot setback. The 
State Department has several additional physical security 
standards for diplomatic facilities, and they include the 
anticlimb perimeters, hardened building exteriors, and safe 
spaces for taking refuge in the event of the attack.
    Do all the new embassies have these type of features? And 
I'll--go ahead, sir.
    Mr. Starr. Yes, sir. Every embassy that we construct anew 
does.
    Mr. Welch. And are there any other security features or 
requirements that you think is critical to securing the 
embassies?
    Mr. Starr. Sir, the security standards that we have for 
construction of a new embassy are extensive. The things that 
you mentioned are not the only things that we have. The 
standards are passed by the Overseas Security Policy Board, 
which is a set of directors of all of the agencies that are--
security director of all the agencies that exist overseas that 
are at our embassies and consulates, including the Department 
of Defense, Department of Justice, the intelligence community, 
everyone.
    Mr. Welch. So some of these, Mr. Starr, some of these 
security features for U.S. embassies in London and elsewhere 
are actually more stringent than what we have for many 
governmental buildings at home here in D.C. For example, none 
of the congressional office buildings have any of the anticlimb 
features of U.S. embassies. Is that right?
    Mr. Starr. Congressman, you're correct, although what 
you're pointing out is an issue that we also have overseas. 
These buildings predate building to new, safer standards. They 
were built many years ago. We have embassies like that as well.
    Mr. Welch. Right. So the building we're in right now 
doesn't have many of these features that are going to be 
organic to the construction of facilities overseas, including 
London, right?
    Mr. Starr. Yes, sir, if I understand your question, yes.
    Mr. Welch. All right. Another topic. One of the things that 
I've seen in visiting some of our embassies is that there's a 
conflict between the needs of security, which oftentimes 
dictate a somewhat remote location and almost a fortress-like 
construction, and the accessibility to people who need to use 
the embassy. And I actually am one who has always favored 
having our facilities located more in the center of cities 
rather than way in the outskirts.
    Is there any way to resolve that? And I don't know if 
that's just a concern I have or if it's shared by any of my 
colleagues.
    Mr. Starr. Director Muniz will say something about this as 
well. But at the beginning of the program, after the loss of 
the embassies in Dar es Salaam and Nairobi, we built many 
embassies in the Sahel and across Africa and many other places 
that had 10 acres of land and were not in the center of the 
cities.
    As we are approaching sort of the midpoint of building new 
embassies, we've built over 110 new facilities now, we find 
ourselves in a position where we want, particularly in cities 
in Europe and other places, to not be very far out, and that 
requires a building that is not low and flat and takes 10 acres 
of land to build. We're looking on, like London, a small 
smaller site, and we go up. And that means we have to have the 
new technology, like curtain walls, to be able to do those 
things.
    Mr. Welch. Thank you.
    Ms. Muniz, do you have anything you'd like to offer that 
relates to questions I've asked? And by the way, thank you for 
your good work.
    Ms. Muniz. Thank you.
    I would just add that I believe very strongly that we could 
build great embassies that project an openness and meet all of 
the security standards and be in those locations where our 
diplomats need to be. I really think that these are things that 
we can resolve. It takes creativity, and it takes an approach 
to each site that we're able to find really an approach that 
we're taking now, an original look to see how we can build on 
that site. But I'm very comfortable that we can meet all the 
security standards and have our diplomats located where they 
need to be.
    Mr. Welch. I want to thank you all. And just a word of 
advice that you don't really need, but the chairman's really 
been taking a very active interest in this, and I think a lot 
of us support him in that concern for safety, and I know you do 
as well. So to the extent you can stay in touch with the 
committee, I think that will be helpful to all of us. Thank 
you.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Linick, let me just begin with you. Did your office, 
the Office of the Inspector General, make recommendations to 
OBO to not begin the construction until they were sure that the 
building would survive a blast?
    Mr. Linick. Congressman, we recommended that OBO establish 
controls to ensure that construction is not initiated before 
designs have been approved by the Bureau of Diplomatic 
Security. And then we recommended to the Bureau of Diplomatic 
Security that they establish controls to require that testing 
is completed before certification to Congress.
    Mr. Hice. Okay. So is that--it would be a ``yes'' then?
    Mr. Linick. I mean, we did recommend that certification----
    Mr. Hice. Which included that it could survive a blast.
    Mr. Linick. That all of that----
    Mr. Hice. That's the whole purpose.
    Mr. Linick. Exactly. Yes.
    Mr. Hice. All right. And with the DS--and let me go a 
little bit further with what you were just saying--did your 
recommendation to DS include that they have controls in place 
to make sure that any building is fully vetted so that it is 
adequate for security purposes?
    Mr. Linick. Yeah. And more precisely, that any required 
testing be done before certification.
    Mr. Hice. Okay.
    Mr. Linick. So that there is--so that safe--so they can 
establish that safety is adequate.
    Mr. Hice. All right. In your recommendations, from your 
perspective, from the office--OIG's office--would a letter from 
an architectural firm be adequate, or did you want more than 
just a letter?
    Mr. Linick. Well, they had always--they were clearly--DS 
was clearly not satisfied with the safety of the glass curtain 
wall until blast testing was to occur. In fact, they were 
concerned about it as early as November 2012 all the way to 
December 6, just a few days before certification. So a letter 
in that circumstance wouldn't have sufficed. They had to do the 
blast testing that was a required test. So, no.
    Mr. Hice. So you're saying that the blast testing was 
required.
    Mr. Linick. I'm saying--that's right--I'm saying that if 
they're going to certify it safe, they ought to do the blast 
testing before they certify it safe, especially since blast 
testing was something they were very concerned about, because 
if it failed, then what?
    Mr. Hice. Then all failed. And we've heard today from Mr. 
Starr that in his opinion blast testing was not required, but 
in your opinion that's the only way to adequately ensure that 
it was equipped to endure a potential blast.
    Mr. Linick. Yeah, what's required under the law is that 
before undertaking any new construction, they certify that 
adequate and appropriate steps have been taken to ensure the 
security of the project, the construction project.
    Like I said, in my view, the blast testing had to be 
completed, otherwise what's the point of certifying.
    Mr. Hice. Otherwise, all you have is a letter.
    All right, so, in your opinion, the recommendations that 
came from your office were not fulfilled. Is that true?
    Mr. Linick. Well, the Department actually has agreed in 
theory to comply with our recommendations, but we haven't 
closed them yet, those two recommendations, the one I just 
mentioned, until we see documentation. We haven't seen any 
controls.
    Mr. Hice. So the recommendations are still outstanding?
    Mr. Linick. That's correct.
    Mr. Hice. All right. In your words, did you receive 
pushback from OBO or DS on the recommendations?
    Mr. Linick. Well, initially--initially, we received 
pushback, but during the compliance process they have appeared 
to agree to comply with our recommendations.
    Mr. Hice. Although that has not yet taken place.
    Mr. Linick. No, but we're still in the process of following 
through with this.
    Mr. Hice. Is there any reason, any valid reason that you 
can think of as to why OBO and DS would not comply, would 
refuse, deny to implement your recommendations initially?
    Mr. Linick. Well, they're not--our recommendations are 
simply that, recommendations. We can't require them to. They 
have to agree to it. So other than that----
    Mr. Hice. Right, but is there any valid reason you can 
think of why they would not proceed with fulfilling your 
recommendations?
    Mr. Linick. No, we made our recommendations, we made our 
findings, and we stand by them.
    Mr. Hice. Okay. Is there anything legislatively that can be 
done that would help?
    Mr. Linick. I think Congress might want to consider 
clarifying what it means to undertake, initiate construction 
prior to certification. I think that would help. Because, after 
all, you've heard that there are various definitions of what 
construction is, and I think some clarity on what construction 
is and, you know, exactly when blast testing, if required 
testing has to occur, would help.
    Because when Congress received the certification package in 
December, it's not clear to me what Congress knew, it's not 
clear to me that Congress realized that the Department was 
relying on an internal memorandum of understanding, which is 
not law. And, ultimately, we've got to rely on the laws and our 
official interpretations of them. That's the problem, from our 
point of view.
    Mr. Hice. Okay. Thank you.
    And thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. Thank you. That was very helpful.
    Ms. Norton, you're now recognized for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I must say, Mr. Starr, it must be difficult today to be a 
diplomat abroad in light of what we're seeing. After the Paris 
attacks, I wonder if there are specific changes that the State 
Department feels are necessary in light of those attacks.
    Mr. Starr. We're looking closely at the Paris attacks. We 
are looking for lessons learned from the Paris attacks. I don't 
think that there's anything necessarily going to come out of 
that that's going to affect how we build buildings or how we 
construct facilities.
    What we are looking at, from the Consular Section and from 
other methods, is how to best warn Americans overseas even 
faster than we do, and I think we do a very good job of it now. 
We encourage all Americans that are overseas to register with 
embassies and consulates who are in the region. You can do that 
online now. We're taking advantage of more online tools. Many 
embassies----
    Ms. Norton. All Americans, did you say?
    Mr. Starr. We encourage all Americans that are overseas to 
register and let us know that they're traveling overseas. Many 
embassies nowadays have automatic SMS messaging, and if an 
American citizen provides their telephone number or an email 
address to us, if something is going on in their location, we 
can message them immediately and warn them to either, you know, 
shelter-in-place or evacuate or things like that.
    So I think one of the lessons from Paris that we're 
learning is that, as I think, quite honestly, as many of us had 
feared for many years, that terrorism that we had seen in 
places like the Middle East and African countries was 
eventually going to evolve through Europe and to other 
countries. And these are countries that have many, many, many 
American expatriates and many American visitors and tourists. 
So we are looking at how we can better warn American citizens 
overseas.
    As I say, I think we do a very good job of it already, but 
in the aftermath of Paris we're even taking another look at it 
and see whether there's even better ways that we can do it.
    Ms. Norton. Mr. Starr, you probably get it coming both 
ways. There were recent reports in the press that some 
diplomats feel hampered in their diplomatic activity because of 
the kinds of security that you apparently have had to place on 
them.
    Have you had such complaints? And have you considered how 
diplomacy, which has to be done everywhere, is or can be 
carried on in light of diplomats who are hellbent on doing what 
they came to do but the Department may feel that there are 
dangers if they proceed? How do you reconcile the dangers with 
people feeling that they're not always able to do their job?
    Mr. Starr. Congresswoman, that is an excellent question. 
It's something that we thrash with very often, and we've had a 
lot of questions about it.
    One of the reasons we build safe and secure facilities is 
so that when our embassy officers and our local staff are in 
the embassy, working out of the embassy, it's a safe and secure 
facility and we don't lose it or everybody in one attack. To 
the absolute maximum extent, we don't want to lose an embassy 
like in Dar es Salaam or Nairobi when the bombings took place. 
We want to make sure that we never lose the embassy proper, so 
that we don't lose our platform for diplomacy and law 
enforcement and justice and intelligence and aid programs.
    But the flip side of this is that diplomats have to get out 
of the building. Diplomats, by their very nature, don't work 
just inside that building. They need to get out. They need to 
talk with legislators. They need to talk with human rights 
advocates. They need to talk with people that are running aid 
programs and humanitarian affairs. They need to talk with the 
people that are running the country in power. They need to talk 
with the opposition.
    Well, in order to do that, we have other programs besides 
just the embassy building program. This is why we provide 
armored cars. This is why we have Diplomatic Security agents 
and bodyguards in some cases. This is, of all cases, why we are 
now engaging in training our diplomats in FACT training, 
Foreign Affairs Counter Threat training, for 5 days before they 
go overseas, to give them medical skills, countersurveillance 
skills, driving skills, rudimentary understandings of weapons 
and explosives.
    These are the types of things that are the flip side of, 
you know, creating a safe and secure embassy when they're 
there, but also understanding that their job is to get out and 
to meet people and talk with people and represent the United 
States. So we have both types of programs that we're running 
simultaneously.
    Ms. Norton. Thank you, Mr. Chairman. I just want to say, I 
think perhaps Benghazi, more than Paris, may have taught about 
eager democrats trying to go to places that aren't safe. 
Perhaps one learned more from Benghazi than even from Paris.
    So thank you very much, Mr. Chairman.
    Chairman Chaffetz. I thank the gentlewoman.
    We'll now recognize Mr. Carter of Georgia for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Thank you all for being here.
    Mr. Starr, correct me if I'm wrong, but I believe this is 
the third time you've been here before this committee this 
year. Is that correct, yes or no?
    Mr. Starr. Yes, sir.
    Mr. Carter. Yes, third. That's what I thought. That's what 
my calculations showed. You appeared here before this full 
committee in July to review the cost overruns of the U.S. 
Embassy in Kabul, and again in September to discuss both 
security concerns and cost overruns with the two U.S. 
consulates in Mexico. Is that correct?
    Mr. Starr. Yes, sir.
    Mr. Carter. And that's just two examples, two examples that 
you've had to answer for this year. Other examples would 
include the State Department paying a construction company 
$18.5 million for renovations to a prison in Afghanistan 
originally slated to cost $16 million, and then the firm only 
completed half of the work over 5 years. And now the State 
Department calculates it's going to cost another $16 million to 
finish the project.
    The State Department has spent $5 million on fancy 
glassware--$5 million on fancy glassware--at U.S. embassies?
    The new embassy in Papua New Guinea had to be entirely 
scrapped, entirely scrapped and started over. That resulted in 
almost quadrupling the cost of the project. Is that correct, 
Mr. Starr, yes or no.
    Mr. Starr. I believe that's correct, sir.
    Mr. Carter. So here we find ourselves here today. So today 
we see that the State Department has decided to act contrary, 
as we've been told, contrary to Federal law and State 
Department policies by starting construction on the London 
embassy before the required blast testing was completed. We've 
established that point, that's why we're here today.
    The State Department has blatantly ignored its own 
policies, it's ignored Federal law and numerous 
recommendations. Poor decisionmaking has exposed the State 
Department to millions, millions of dollars in cost overruns. 
And now you're trying to push ahead and start the project, as 
we've seen, so that there's no turning back.
    Does that sound familiar? Does that sound familiar to 
anything? Does that sound familiar to the Foreign Affairs 
Security Training Center that you're trying to build in 
Virginia right now? Does that----
    Mr. Starr. No, sir, it does not sound familiar to me.
    Mr. Carter. It does not.
    Mr. Starr. And I think you're misstating a lot of the 
facts.
    Mr. Carter. And, Mr. Starr, I'm following your example, 
because you've misstated a lot of the facts all day long. You 
could have renovated and you could have redone the current 
London embassy for less than a billion dollars if you'd only 
slowed down and made sure it was done correctly. We've 
established that here today. We've established that.
    And then you know what bothers me so much about this? Is 
that we're making the same mistake all over again. All you have 
to do is look at what you're trying to do with the Foreign 
Affairs Security Training Center. That's all we've got to do. 
You look at what was done. You compared FLETC, the Federal Law 
Enforcement Training Center down in Glynco, Georgia. They 
submitted a bid of $243 million. You went to Fort Pickett. They 
submitted a bid of $950 million. And you went back to Fort 
Pickett and said, ``Aw, come on, can't you do better than 
that?'' They said, ``Okay, we'll come down to $450 million. 
We'll just eliminate the dormitories, the cafeterias, all the 
things that already exist at FLETC, we'll eliminate all those 
and we'll get the price down.''
    You know, why don't we do this? I tell you what let's do, 
Ms. Muniz and Mr. Starr. Let's just go ahead and schedule, Mr. 
Chairman, let's go ahead and schedule the next hearing on the 
cost overruns at FASTC? You want to go ahead and do that? It'll 
just save us a lot of time.
    Because we know you're going to be right back here. We've 
seen it already.
    Let me tell you, when you get back here on the cost 
overruns on that, if I'm still on that committee, don't count 
on my support.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank the gentleman.
    Mr. Starr. Is there a question you'd like me to answer, 
Congressman?
    Chairman Chaffetz. The gentleman----
    Mr. Carter. Mr. Starr, I don't----
    Chairman Chaffetz. The gentleman yields back. The gentleman 
yields back.
    The gentleman from North Carolina, Mr. Meadows, is now 
recognized for 5 minutes.
    Mr. Meadows. Thank you all for being here. It's good to see 
you back, a few of you.
    Mr. Starr, I think part of the frustration is that you 
answer with such specificity and inclusiveness that it's hard 
for any of us to take some of your testimony seriously that 
everything is okay. Now, I've talked with your colleague a 
number of times, have a good relationship, I believe, with her 
in terms of trying to find areas to address the embassy and 
diplomatic needs that we have.
    So I guess the question I have for you is, I heard Mr. 
Linick talking to Mr. Hice about the need for clarity. So would 
you say that some of the ``not following the rules'' is because 
of ambiguity in the law?
    Mr. Starr. No, sir, I don't believe so. First----
    Mr. Meadows. So why are we not following?
    Mr. Starr. I don't think this committee--I don't think we 
have had the opportunity to spend the time with the staff of 
this committee that we spent in years past with the Senate 
Foreign Relations Committee and the House Committee on Foreign 
Affairs on the building program.
    Mr. Meadows. So whose fault is that? This committee? 
Because I'm willing to take this committee to task if they 
haven't made themselves available.
    Mr. Starr. No, sir. I think this hearing and briefings that 
we're trying to do, I think, are valuable. I think they help 
the committee understand things. This is a tough business, and 
we do make choices.
    Mr. Meadows. Well, but let me get back to the question. I 
only have 5 minutes. Because I've been able to spend time with 
Ms. Muniz in my office. She came after a hearing and said, you 
know, ``Is there anything that we can offer?'' We've had 
follow-ups since then. You know, it's that dialogue. And while 
we may not agree on everything, we were able to come to an 
understanding on a number of issues.
    And so I guess my question is, if there is not a lack after 
ambiguity, other than informing us, what's the problem, Mr. 
Starr? Are we going to come in under budget? Are we going to 
come in? Are you going to----
    Mr. Starr. Well, the budget, sir, I can't really tell you 
about. What I can tell you is----
    Mr. Meadows. So we may require appropriations to finish 
things?
    Mr. Starr. This building, I don't believe so. If you'd like 
to ask Director Muniz. But the security of this building, I can 
tell you, we are building a building that meets our standards.
    Mr. Meadows. But does the ends justify the means?
    Mr. Starr. No, sir. It's a question that you have to look 
at.
    Mr. Meadows. Well, it's not a question that you have to 
look at. It's a question of law. And what Mr. Linick----
    Mr. Starr. Yes.
    Mr. Meadows. --has pointed out is, is that there seems to 
be either ambiguity or the lack of following what has been laid 
out. Which is it?
    Mr. Starr. I don't believe there's a lack of ambiguity in 
the law, sir. We are required----
    Mr. Meadows. All right. So there's a lack of following----
    Mr. Starr. No. And certainly no lack of following it. I 
certify----
    Mr. Meadows. So everything's okay?
    Ms. Muniz. If I could jump in.
    Mr. Starr. Sir, this building is--we promised----
    Mr. Meadows. All right. Hold on. Let me let her----
    Mr. Starr. But, sir, just, we promised Congress----
    Mr. Meadows. You've been talking a lot. Let me let her jump 
in. She wanted to jump in. So let me----
    Ms. Muniz. I'm sorry. I just want to jump in and give my 
interpretation of the issue.
    I really believe that, first of all, the work that OBO does 
and DS' certification of our projects is highly technical. 
You're familiar with construction. It is a very technical 
field.
    I believe the crux of this discussion is a difference of 
interpretation. We are very clear and believe that the law 
provides us the right to certify based on designs and on 
calculations, which is done commonly across the industry. The 
IG has interpreted that a blast test was necessary before 
confirming that.
    I would argue that blast tests are done commonly--not blast 
tests--testing of components of buildings are done commonly 
during the construction phases, and when developers, whether 
it's a State Department government developer or in private 
industry, when there is an understanding that any kind of a 
course correction can be made and all of the standards can 
still be met, construction proceeds from the beginning with 
adjustments made during construction so we finish on schedule 
and we certify.
    Mr. Meadows. And as you know, I understand that. I guess 
the real question is the American taxpayer dollars. At what 
point are we so sure that those standards are met? Because Mr. 
Starr has indicated there are a number of waivers that they 
have continued to give, maybe not on London, but on other 
projects, and yet he says that we're following all the 
standards, and those were your words in quotes, all the 
standards. So why would you need a waiver if you're following 
all the standards?
    Mr. Starr. Sir, the law requires that we inform Congress. 
For new construction----
    Mr. Meadows. That's not the question.
    Mr. Starr. For new construction, I can't even remember the 
last time we've asked for any waiver for setback----
    Mr. Meadows. I didn't ask that.
    Mr. Starr. --or for co-location or for any of our----
    Mr. Meadows. Mr. Starr----
    Mr. Starr. --or for any of our standards.
    Mr. Meadows. Mr. Starr, it's your testimony that suggested 
that there's waivers and that you followed all the rules. Those 
two are mutually exclusive. It couldn't happen.
    Mr. Starr. Sir, when we have to take a facility that's 
already built, when we go into a city that we have to accept, 
we're never going to meet the standards, and we do issue a 
waiver for those.
    Mr. Meadows. Mr. Starr, with all due respect, that's apples 
and oranges. We were talking about new construction. Have you 
done any waivers with new construction?
    Mr. Starr. I think the only--we have a waiver in Jakarta 
for the swing space and for a historic building that's on the 
compound. I can't remember another waiver that we've issued for 
new construction.
    Mr. Meadows. On new construction? All right. Will you get 
that to this committee?
    Mr. Starr. Yes. I promise, sir.
    Mr. Meadows. Thank you. I'll yield back.
    Chairman Chaffetz. Before the gentleman yields back, this 
is why I have a problem when you make sweeping generalizations, 
saying we never issue waivers. And we know there's two examples 
right there. You make this infinitely more complex in your 
testimony. That's my personal opinion.
    And to suggest that we haven't made staff available, well, 
here's my frustration. June 23, 2014, we sent a list of 
questions still outstanding, have not gotten a full and 
complete response to that. July 21 we sent a letter, production 
is still going on.
    We sent another letter dealing with Maputo, Harare, and 
Saudi Arabia, sent August 6, still outstanding. We sent a 
letter to you on October 16 regarding danger pay, still 
outstanding. Sent another letter on October 7, due October 21, 
production has not even started on that, nor was it even 
started on danger pay.
    So you say it's a lack of communication, but when I send 
you a letter and this committee wants to get some answers, even 
when we've given you, you know, nearly 6 months, you can't seem 
to respond to us. And that leads us to beg the question of what 
is it that they're hiding, why will they not comply with this? 
We're asking, I think, some very basic, simple questions.
    Other committees--or other agencies don't have this 
problem. Some do, but others don't. And it's compounded by the 
fact that we have the greatest respect to the inspector general 
community, and when these professionals, without their partisan 
hats on, without--come in and look and do an analysis and say 
impartially that there's a problem here, it gets our attention.
    We're irresponsible if we just ignore it and put it on a 
shelf. My biggest fear is these 13,000 people throughout the 
inspector general community, they do good work, they'll look at 
it sometimes for a year or 2, and that we don't respond to it. 
That's my concern.
    And so the situation here with the blast wall is different 
and unique because it's never been used. Not only has it never 
been used by us as the United States Government, when I went to 
London, the people on the ground, good, hard-working people 
committed to making the very best, safest product they can, and 
I asked them, ``Is there an example somewhere in the universe 
that we can look at this?'' They said, ``No, nobody's ever done 
this before.'' They were proud of the fact that we were blazing 
new trails. That kind of begs the question that maybe we should 
do a testing.
    And then you come before our committee today and suggest 
that all the engineers were all lined up behind us. That's not 
true. That is fundamentally not true.
    And so I think Mr. Linick makes a very good point, the 
certification we give to Congress, I mean, you can play, you 
know, hide the rabbit, and we've got to try to figure out which 
hole it's under, but there's an expectation, I think, in the 
law that that certification tells us that the tests have been 
done and that you--and you say it's not a lack of clarity, but 
you have the inspector general disagreeing with you. That's why 
we're here today.
    So I appreciate the gentleman letting me use some of his 
time. Let's now recognize Mr. Russell for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman. And, again, thanks 
for addressing this important issue.
    We all realize it doesn't matter which embassy a threat may 
get. The symbology of just getting one. We saw the destruction 
of the Beirut embassy that resulted in many of the security 
standards that we now live by. We saw the loss of the Tanzania 
and Kenyan embassies that furthered under Secretary of State 
then Colin Powell to make standard embassy design so that we 
could have something that would economize the dollars that we 
have and also provide security in all of the foreign missions 
that we possess.
    And therein lies the problem. We've seen in recent years a 
deviation, some for needs of topography or needs of the country 
or needs of the mission, but some just for purely different, 
political reasons.
    And I guess, you know, Director Muniz, you know, you bring 
not only integrity and a great work ethic and reputation that I 
think both sides respect, and you've certainly earned that, but 
my question, and we see it here even with the London embassy, 
what do you think would be the most important, spending 
hundreds of millions of dollars beyond the scope of what's 
needed in nonstandard designs with renewable energy projects 
and initiatives or building proven secure embassies that will 
maybe alter for esthetics or for culture in our most vulnerable 
missions overseas? Which is more important dealing with the 
terror threats that we face globally today?
    Ms. Muniz. Thank you for your question.
    I think I would argue that we don't have to choose one. We 
can do both. So I think London is a great example of, as I 
explained earlier, the Department was faced with a situation 
where we could have spent $550 million at the time of that 
estimate. Today that would be $730 million we could have 
invested in renovating the existing Chancery and it still would 
not have met security standards. So we had to look at 
alternatives. We sold existing functional properties in London 
to finance the current project.
    Many of the sustainability requirements of the embassy, the 
public art requirements for that embassy, were put on us by the 
city of London and by the borough in London in which we're 
developing that building. So part of it is, is what we need to 
do satisfy the local government's requirements for us to build, 
much like----
    Mr. Russell. And I do appreciate the----
    Ms. Muniz. --we meet local requirements----
    Mr. Russell. Sure.
    Ms. Muniz. --here.
    Mr. Russell. Sure. And I understand the cultural needs. I 
mean, we are representing our country in theirs around the 
globe. I've had the privilege to travel as a member of this 
committee to many countries examining embassies. But I don't 
think that we are having security and thrift as the greatest 
thing in view.
    And then to hear you, Mr. Starr, say that, in essence, it's 
all unicorns and rainbows and it's perfect out there, and then 
now we need to spend hundreds of millions of more dollars on a 
training facility that, quite frankly, our Armed Forces could 
probably cooperate and provide many of those needs.
    And I guess, you know, just from infantryman's point of 
view and having been in a number of embassies in my military 
career over more than two decades, I saw a lot of glaring 
things that you don't even seem to be caring to address. And so 
I'd like to address so some of them since we have here you 
here.
    Security detachments. Basic stuff. You're complaining about 
not having tens of millions of dollars or hundreds of millions 
of dollars for this or that security. Well, I've got some 
questions for you. Night vision devices, aiming aids for our 
security detachments, we're talking four figures here could fix 
these in any given embassy.
    Power generation, water storage on the periphery walls, 
very vulnerable. They said, ``Well, we can hold out for 30 
days.'' Not if it's out there on the wall and it's already 
taken, which usually is the first thing that gets assaulted at 
an embassy, is the outer wall.
    And then we see sewer and underground vulnerabilities. You 
ask, ``Okay, where does this go, what's the access here?'' 
``Well, we think there are some bars down here that would 
prohibit people getting up.''
    I mean, these are consistent things that I've seen on my 
trips. And we're not talking hundreds of millions of dollars, 
sir, we're talking single-digit millions could fix a great many 
of these things.
    My question to you, if you are so dedicated to security, 
what are you doing to address those things?
    Mr. Starr. Thank you, Congressman. There are thousands of 
things that are wants and there are things that are needs. 
Working closely with the inspector general, who goes out and 
looks at our posts, and then we put together multiagency teams 
that include the Department of Defense and the Marine Corps 
that look at our embassies and DS agents that go out----
    Mr. Russell. And they tell me they need these things.
    Mr. Starr. We look at these things--no, sir, I have no 
request from the Marine Corps for night vision devices. I have 
specialized units.
    Mr. Russell. You should get out to your embassies more and 
talk to those security teams that are out there.
    Mr. Starr. Sir, I have been to Afghanistan, Iraq----
    Mr. Russell. No, I'm not talking Afghanistan and Iraq. I'm 
talking countries that largely have peaceful populations.
    Mr. Starr. I've been to many of those places as well, sir.
    Mr. Russell. Well, I have no doubt that you have. And I 
would suggest, in fact I would like a report back on how you're 
addressing--when you have basic marine riflemen that don't even 
have an aiming aid on their rifle per rifleman, when you don't 
even have in a, say, six-and-one security detachment and they 
don't have seven total night vision devices, these are very, 
very simple fixes.
    When you're talking about peripheral water storage and 
electrical generation that could be brought interior, much more 
close, and allows these legations to survive in the critical 
hours where they could maintain their communications and 
continue, I would say we have much, much more work to do.
    And, quite frankly, Mr. Starr, I've not been impressed with 
a lot of the initiatives and the bright rosy picture that you 
portray, because in very simple, correct fixes, we can do so 
much more than we're doing now in practical terms without 
asking the American taxpayer for hundreds of millions of 
dollars.
    And, Mr. Chairman, thank you for indulging me beyond my 
time. I yield back.
    Chairman Chaffetz. Before the gentleman yields back, I want 
to follow up on his question. Are you suggesting to us that 
there are no outstanding requests for anything from the 
Marines?
    Mr. Starr. Sir, the Marine Corps is responsible for 
providing weapons for the marine detachments. I am not aware 
that there are unfulfilled requests from the marine detachments 
through their MCOs to the Marine Corps. The Marine Corps sets 
the specifications for what weapons they get, what gear they 
have. That is up to the Marine Corps, not up to Diplomatic 
Security.
    The larger question about other things that we have----
    Chairman Chaffetz. When, when, wait, I want to get to the 
marines here, okay.
    If they need material, if they need equipment, they're to 
make----
    Mr. Starr. Requisition through the Marine Corps.
    Chairman Chaffetz. Through the Marine Corps.
    Mr. Starr. Yes, sir.
    Chairman Chaffetz. And they're to get that from the Marine 
Corps?
    Mr. Starr. Yes, sir.
    Chairman Chaffetz. So if they need night vision capability, 
they need to be able--they're sitting there in the booth and 
they want to be able to see the perimeter, whose responsibility 
is that?
    Mr. Starr. That would--if there's a need for night vision 
equipment, it would come from the Marine Corps.
    I would tell you, sir----
    Chairman Chaffetz. Wait a second. Now, there's individual 
goggles.
    Mr. Starr. Right.
    Chairman Chaffetz. But then there are cameras.
    Mr. Starr. Right, which is ours. All of our cameras have 
night vision capabilities.
    Chairman Chaffetz. That is absolutely not true.
    Mr. Starr. Sir, we----
    Chairman Chaffetz. You are so full of it, I can't even 
begin to tell you. That is not true. You come before this 
committee, you come before Congress, and you keep representing 
that we have all this in. They do not.
    Mr. Starr. Sir, we have spent the last 3 years----
    Chairman Chaffetz. Don't bark back at me. No, Mr. Starr, 
you are not----
    Mr. Starr. We have spent the last 3----
    Chairman Chaffetz. Mr. Starr, Mr. Starr, the time--when I 
ask you a question, then you can answer it.
    This is the problem with you in this position. You cannot 
tell me that there is night vision capability at each of our 
embassies and consulates. Is that what you're testifying to?
    Mr. Starr. Sir, all of our cameras, even our lowest and 
oldest cameras, have enhanced resolution.
    Chairman Chaffetz. Do they have a night vision capability?
    Mr. Starr. They are capable of seeing what is going on in 
the compound at night, sir.
    Chairman Chaffetz. In the dark?
    Mr. Starr. If--if--we lose all power and if we lose all 
generators, there are certain posts that will not be able to do 
that. But we have low light capability, and we've had that 
since the early '90s.
    Chairman Chaffetz. You are misrepresenting the facts, Mr. 
Starr.
    Mr. Starr. Sir, we have low light capability cameras, and 
we have engaged, since Benghazi, in an upgrade program starting 
with all of our----
    Chairman Chaffetz. It's not complete. You've wanted us to 
believe, if I didn't question you, that every one of our posts 
can see at night. They can't.
    Mr. Starr. Sir----
    Chairman Chaffetz. And you don't understand that. You are 
the assistant secretary, Bureau of Diplomatic Security, and you 
don't know that our people can't see at night.
    Mr. Starr. Our marines and our agents can see at night.
    Mr. Russell. Well, I would tell you this, Mr. Starr, if I 
may, Mr. Chairman, the regional security officers are the ones 
that provide, as you well know, the security for each of the 
compounds. State funds the RSO's request.
    Mr. Starr. Correct.
    Mr. Russell. And that includes many of the pieces of 
equipment that they ask for. Now, either the integrity of the 
Marine Corps is at stake here, where they say that they can't 
get the equipment because it's funded through the RSOs, or 
maybe somebody else's integrity is at question here.
    Chairman Chaffetz. I think the picture is really clear. You 
can understand why these RSOs are having so many problems. I 
walk into every embassy I go into now and ask them if I can see 
at night. One of the most recent embassies I walked into, they 
said, ``Well, if the lights are on.''
    I said, ``Well, what happens if it's dark, what happens if 
they shoot out the lights?'' ``No, then we couldn't see a 
thing. We'd be in the pitch dark.''
    How you, in that position, have the arrogance to come 
before us and say everybody has the ability to see at night, 
I'm telling you, Mr. Starr, you are beyond, beyond belief here. 
This is why we keep coming back here, because that is 
fundamentally and totally not true. And I'm dedicating my life 
running around the world to make sure that they get the 
equipment that they have. The problem is, the person who is in 
position to do it, who could go down to Home Depot and buy this 
stuff, isn't doing it, doesn't even think it's a problem.
    I would love to see a list. Are you able to provide a list 
to us of all the outstanding requests by the regional security 
officers? Can you provide us that list?
    Mr. Starr. I believe I can, sir.
    Chairman Chaffetz. When will you provide it?
    Mr. Starr. Give me 2 weeks, sir.
    Chairman Chaffetz. Two weeks it is.
    Chairman Chaffetz. Now I recognize the gentleman from 
Alabama, Mr. Palmer----
    Mr. Starr. May I comment, sir?
    Chairman Chaffetz. Sure.
    Mr. Starr. Sir, we have embassies all across the world. We 
have embassies in Third World countries and First World 
countries. We have embassies where we have never lost power, 
and we have embassies where we do lose power and we run on 
generators. We have some of the most comprehensive security 
standards for any facility in the world.
    Now, I'm not saying that our buildings are built better 
than the protection for nuclear facilities, but in comparison 
to a regular office building, our facilities are built to a 
standard that is very safe and secure. Our embassies in Sudan 
and in Tunis withstood 8-1/2 hours of crowds pounding on them 
when the police wouldn't come and rescue our people. Our 
marines and our RSOs had the equipment to defend those 
embassies during that time. Nobody got in. Nobody was injured.
    We have comprehensive programs. They're not perfect. There 
is no such thing as a perfect program, and we continue to run 
reasonable risks overseas. But we will do our absolute best to 
ensure that our people are safe and secure.
    Chairman Chaffetz. I appreciate you getting that list to 
this committee. I do appreciate it. We look forward to seeing 
it in 2 weeks.
    Mr. Palmer from Alabama is now recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Ms. Muniz, Mr. Starr, why does the Overseas Buildings 
Operations and the Bureau of Diplomatic Security rely on 
unpublished draft memorandum rather than Federal law and the 
Foreign Affairs Manual to determine when to begin construction 
on facilities?
    Ms. Muniz. I'm not sure I understood your question 
correctly. I think it was, why do we rely on our published 
policy versus law?
    Mr. Palmer. Unpublished, on unpublished draft memorandum.
    Ms. Muniz. I would say that we rely on the law when it 
comes to certifications to Congress. I would turn this over to 
Mr. Starr.
    Mr. Starr. Sir, in terms of certification, I agree with the 
inspector general that we have a section of the FAM that's out 
of date that does not--is actually saying something that's 
different than public law. If there's any question about what 
takes precedence, it's public law over the Foreign Affairs 
Manual.
    Mr. Palmer. Then what is your response to the OIG's finding 
that the use of the draft memorandum, without telling anyone, 
is likely to mislead audiences, including Congress, who expect 
the Department to follow its published policies?
    Mr. Starr. Sir, the public law requires us to certify to 
Congress that the facility resulting from the construction 
project is going to be safe and secure for our national 
security activities, our classified information, and our 
people, our personnel. We are providing a facility in line with 
that certification that is safe and secure for our people, our 
national security activities, and our classified information.
    Mr. Palmer. Well, my concern is, as the OIG's report points 
out, is that it's likely to mislead people, including Congress.
    And I want to go--put the slides back up that Mr. Chairman 
had up at the very beginning of hearing on the construction 
project.
    Ms. Muniz, you've made the argument that that's not 
construction. I worked for two international engineering 
companies, engineering construction companies, and it is--there 
are times when you could separate the site work from the 
overall contract where it could be contracted out. But having 
worked in engineering construction, I can assure you that site 
work is part of the construction. But even more importantly, 
when you're setting piles, it's absolutely critical to the 
construction process.
    And I think you made the assertion that that's not 
construction. Frankly, I was astounded when you said that. It 
raises questions, in my mind, your competence in your position.
    Ms. Muniz. I would like to be clear about the Department's 
position on this. So, first of all, with respect to this photo, 
this photo was taken after certification.
    Mr. Palmer. Before you go any further, are you saying this 
is the Department's position, that setting the piles and doing 
the basic foundation work is not part of the construction?
    Ms. Muniz. The Department--what I explained is that the 
Department has allowed for years, since 2003, the construction 
of piles up to pile caps in advance of certification. That has 
been common practice for over 10 years.
    Mr. Palmer. If you do that, does this not result in 
substantial numbers of change orders when you haven't certified 
the building and you find out later that the foundations are 
not sufficient? I think there has been some issues with that.
    Ms. Muniz. We have not found that. And we certainly have 
not found that in the case of London.
    Mr. Palmer. I'm talking about overall, because I think 
there are issues with exceeding the budgets, having numerous 
change orders. I think there was some issue with a couple of 
things you wanted to put in the building that you couldn't put 
in because you found out that the building wouldn't support it.
    Ms. Muniz. I'm not sure which project you're referring to. 
That's certainly not the case in London.
    Mr. Palmer. Well, my point about this is, is that you come 
in and, listening to the chairman's questioning, and you argued 
that or assert that the setting of the piles is not part of the 
construction progress and that you admit that you have done a 
lot of this work without certification of the building, which 
raises questions to me that if the building has not been 
certified that it leaves the door open for design changes that 
do impact the construction costs.
    And I think that's one of the problems that we have in 
trying to make sure that the taxpayers' interests are 
protected, not only that our employees who depend on these 
facilities for their protection are taken care of, but that we 
take care of the fiscal aspect of this as well. I mean, you 
know, we're deficit spending every year, and certainly not--it 
is not totally due to cost overruns.
    And this is something that I'm finding throughout the 
Federal Government. But it is a problem here. And listening to 
some of the other questions that have been asked about some of 
the inadequacies that are not being addressed, and we're 
spending, I think, millions of dollars having to address issues 
of design changes and change orders and other aspects of 
construction projects.
    And, again, frankly, for someone to assert that setting the 
foundations and driving the piles is not part of the 
construction process raises serious questions in my mind about 
the qualifications of the individuals that make those 
assertions.
    I've gone over my time, Mr. Chairman. Thank you. I yield 
back.
    Chairman Chaffetz. Thank you.
    As a follow-up here, I now have a number of issues and 
questions I need to go through.
    So that picture that was just up on the screen, that is one 
of our concerns. I think it's a legitimate concern, it's 
something that the IG is seeing, something that we're seeing. 
If we can put that picture back up there, that same one, which 
the most recent one.
    If I hear right, OBO is saying that's not construction, 
that has been the practice for 10 years, predated what you had 
done. And we're looking at that, saying, well, we think that 
does meet the standard of construction.
    And one last line, then I'll give you a chance to answer. 
In the IG report, it says, quote, ``The Department must provide 
certification to Congress that the project design will meet 
security standards prior to undertaking construction.'' And I 
think this is the disconnect. We may not be able to resolve it 
today, but I think we've understood where the disconnect, in 
part, is.
    Ms. Muniz.
    Ms. Muniz. So my comment about this photo is only that this 
photo shows work beyond the piles. So what we have argued is 
that it has been common practice in the Department to award a 
construction contract, I'll be very clear about that, for 
years, award a construction contract and to allow the beginning 
of the construction of the piles to the pile cap. We stop prior 
to the foundation and certainly prior to coming out of the 
ground. This photograph was taken about 5 months after 
certification, which is why you do see the building coming out 
of the ground in this photo.
    Again, I want to be very clear about awarding the 
construction contract. It's clear to me why that would be 
viewed as commencing construction. And that is a practice that 
the Department has undertaken for 12-plus years and is simply a 
practice that we continue to progress with.
    I do agree there is this--there is this ambiguity between 
awarding the construction contract and the certification. But I 
really believe that we should work together to resolve the 
issue, because the advances in speed that we have been able to 
make awarding design-build contracts or awarding contracts and 
having those piles come out of the ground, and those have 
benefited the program for over 10 years, have been because we 
have gone forward with that practice.
    So I think we should work to find a methodology that 
everybody is comfortable with where we can move those projects 
forward.
    Chairman Chaffetz. Sounds good. The problem is the 
inspector general is also not convinced. And I think we would 
have a greater level of confidence, but the inspector general 
still 5 months out is still saying this is an outstanding 
recommendation.
    And I think it is also materially different when you have 
such a design element that is dramatically different. It's not 
something we've ever done before, nobody has ever done before. 
And it's not a little, hey, we're going to try a new air 
conditioner. We're talking about the whole facade, the whole 
blast wall of the entire building in this day and age where 
safety and security is so paramount.
    We have surrounded it. I'm just saying we want to work with 
you on that. But I also want you to work with the inspector 
general. I think our issue is not just pulled out of thin air, 
it is well founded, and that the IG is really the one that 
pointed this out.
    Along with that is there are four outstanding 
recommendations? Or two of those have been closed? Help me, Mr. 
Linick, as to where we're at with this.
    Mr. Linick. Yes, Congressman. Two of those have been 
closed, those relating to the $42 million. The two 
recommendations were that the Department put together policies 
and procedures to make sure people understand the contracting, 
the ECI method, and also that there's training. And both of 
those have been closed. We've seen documentation indicating the 
Department has completely followed those recommendations.
    Chairman Chaffetz. What's outstanding?
    Mr. Linick. The other two that are outstanding are the ones 
to DS and OBO regarding making sure there are controls in place 
to ensure that construction is not initiated before 
certification and that required testing is done before 
certification.
    Chairman Chaffetz. And I think it would be helpful if State 
could provide sort of a definition of what construction is, 
because I think this is where there is a disconnect between the 
three different entities here, between State, the IG, and 
certainly us in Congress. So I hope you find that favorable. 
We'll work towards that.
    Mr. Cummings. Will the gentleman yield just for a second?
    Chairman Chaffetz. Sure. Sure.
    Mr. Cummings. Mr. Chairman, you just hit on a very 
important point. It seems as if you have one understanding and 
you have another, Mr. Linick. And some kind of way, we've got 
to come together or we're going to be going through this 
process over and over again. It seems--would you agree, Mr. 
Chairman?
    Chairman Chaffetz. Yes. That's why we're 5 months later 
after these recommendations and we're having to call a hearing.
    Mr. Cummings. I think that's very important that we figure 
out how do we get on the same page with regard to understanding 
the law and the regulations.
    Is that--Ms. Muniz?
    Ms. Muniz. I think that's fair. And I think there is a way 
that we can come to an understanding and brief the committee so 
that we are all very clear about when construction contracts 
are awarded, when certification happens, and all of the steps 
in between. I do think that's something that's achievable.
    Mr. Cummings. Thank you for yielding.
    Chairman Chaffetz. Taking photos of buildings under 
construction, what is--is there a State Department policy on 
that? We do it? We don't do it? I'm getting conflicts here.
    Mr. Starr. We actually can't prevent it. I mean, you canbe 
outside of our perimeter and take photographs of it as it's 
going up. We have certain things, certain places, and certain 
sections inside that we don't allow photographs.
    Chairman Chaffetz. When I was in Jakarta touring that 
facility, you know, I'm on the Oversight Committee, I'm the 
chairman of this committee, and they didn't want me--I took 
some, but they didn't want me to take any photos of those 
buildings in a very raw state. And then we come back and we 
look online and you got Flickr accounts.
    And go to the other one. This is all public, you know. And 
I really do question, based on the security side, I don't know 
if you all are having to look at this, but there's another 
photo, hopefully we have it, from the inside of the building, 
where I really question whether--whose best interest is that? I 
mean, I know we want to get our Facebook posts up and get more 
people following us on Instagram. But we'll show you these.
    And this is a sensitive post. We got a lot of classified 
information that's going to be flowing through there. And we're 
showing the duct, you know. We just passed a law, an energy 
bill that doesn't allow for us to show how electricity flows 
and where, and, yet, we're out there taking pictures and 
posting them up and trying to promote, hey, look at how the 
construction is coming along.
    And I think it is a security question. And I think we 
should--I just encourage you to go back and look at that, 
because I don't think it's in anybody's best interest to 
actually have the intimate details. From the street, afar, 
anybody, you know, their hotel, is taking a picture, I mean, 
you're right, not much we can do about that. But when we do it 
internally, I think that's somewhat of a problem.
    The glass. I do question the whole blast wall and why we 
picked such an opulent-looking facade. What is the cost of 
taking this and shipping it? I believe it's constructed in 
Germany, right, goes to Connecticut, then it's got to go back 
over to Europe. What does that cost to do? Because now we're 
starting to see it blossomand going into other facilities, like 
Jakarta and other places.
    So why this? And what is the actual cost of this?
    Ms. Muniz. So we could get back to you on the detailed cost 
of the curtain wall as separated from the rest of the building.
    Ms. Muniz. I don't have that off the top of my head.
    I do know that, as you pointed out, on the London embassy, 
the glass is manufactured in Germany, is shipped to the U.S. 
for security reasons to be reassembled with the frames, which 
are manufactured here, and then shipped back.
    We, when letting a contract, don't control what we call the 
means and methods in that construction contract. So we let the 
contractor find the best provider of any material. My hope is 
that we will be able to, and Jakarta is an example where we are 
using a U.S. manufacturer of the glass, as well as the frame. 
And I think that's the ideal scenario.
    Chairman Chaffetz. The cost of the glass, the production, 
the shipment, all of that, my understanding this is in the 
range of, you know, this alone is about $100 million dollars of 
the expense. So when is a reasonable time to get that 
information?
    Ms. Muniz. Given the holidays, I'm being conservative----
    Chairman Chaffetz. Understood.
    Ms. Muniz. Given the holidays, why don't we give you 
something early January. We'll try to see if we could break out 
the cost. Some of this will require us to go to the contractor 
and ask for their number.
    Chairman Chaffetz. Fair enough. Fair enough. Let's keep 
going because I want to----
    Ms. Muniz. But we could work on it.
    Chairman Chaffetz. Fair enough. I want to get through this.
    There's an issue with the VAT tax. I don't know where we're 
at in this process. I've read news reports. Locally they were 
going to charge us a VAT tax. State said no. Then we were on 
again. What is the status of the VAT tax obligation?
    Ms. Muniz. We have resolved the VAT tax discussions, and we 
would be happy to have more detailed conversations in a closed-
door setting about the resolution of the agreement. But the 
conversation----
    Chairman Chaffetz. Why can't you share that, at least the 
tax bill?
    Ms. Muniz. The conversation has been resolved with the 
British authorities and we are within our budget and actually 
below our budget, which had included an estimate for VAT.
    Chairman Chaffetz. Why is that? Is there some classified, 
something classified about this? Or is it just embarrassing?
    Ms. Muniz. It's not just embarrassing, but our bilateral 
conversations and agreements on VAT with different countries 
are occasionally privileged. And in this instance, that is the 
case. But, again, we would be happy to have a more detailed 
briefing in a closed-door setting.
    Chairman Chaffetz. Okay. I'll trust you on that.
    Ms. Muniz. But the issue is resolved, you will be happy to 
know. The discussions are closed and we are within the budget.
    Chairman Chaffetz. There was a news report that you had 
spent a million dollars on some slabs, I don't know how to 
describe it other than slabs of cement that were supposed to 
adorn the embassy. It was a million-dollar expenditure. The 
artist's last name, I think, is Scully. But then it was 
discovered, at least according to one news report, that it was 
too heavy to move and certainly too heavy to be in the embassy. 
What is the latest on that fiasco?
    Ms. Muniz. So the latest on the art acquisitions is we had, 
you are quite right, contracted with a gallery to provide a 
monumental sculpture for the outside of the embassy. As you'll 
recall, we were required in order to get permitting for the 
building to invest 1 million pounds in public--what would be 
considered public art, not unusual in large, developed cities. 
That went towards that contribution.
    It is true that the sculpture, as envisioned, was solid 
granite blocks and my understanding is was too heavy for the 
position where it was going to be. But we are going to replace 
it with other public works. The piece in question was not 
purchased, and the piece was not manufactured, and we have an 
agreement with the gallery to work out other arrangements for 
that public art.
    Chairman Chaffetz. How much are we going to spend on art in 
this embassy?
    Ms. Muniz. So the total art budget is a little over $4 
million. As you know, we provide 0.5 percent of all of our 
construction contract amounts for art programs in our new 
buildings, new embassies and new consulates. In this instance, 
because of the 1 million pound requirement to add public arts, 
we added that, because all of that will be focused on the 
exterior of the embassy to get our permits.
    Chairman Chaffetz. Was that a London city request or was 
that----
    Ms. Muniz. We can get back to you on whether it was the 
Borough of Wandsworth or the city of London, but it was 
certainly a local requirement.
    Chairman Chaffetz. Mr. Starr, have you had, and I'm talking 
broadly here, there been any data breaches of our information 
systems at the State Department in the last 12 months?
    Mr. Starr. Yes.
    Chairman Chaffetz. How many?
    Mr. Starr. I know of only one that any data was 
exfiltrated.
    Chairman Chaffetz. And was that different than the Office 
of Personnel Management?
    Mr. Starr. Yes.
    Chairman Chaffetz. And how many people did it affect?
    Mr. Starr. There was no PII released, sir, no personal 
identifiable information. It wasn't that type of breach.
    Chairman Chaffetz. Was there any classified information 
released?
    Mr. Starr. No, we don't believe there was any classified 
released either.
    Chairman Chaffetz. Within the structure, who's responsible 
for the security of those systems?
    Mr. Starr. Diplomatic Security runs a computer virus, 
computer cybersecurity center for IRM, which runs the 
infrastructure, the pipes, does all the communications, and all 
oF that. They're responsible for the system. We help protect 
from the outside, looking at things that are coming in. We work 
closely with US-CERT and with Homeland Security and other 
agencies to make sure that we have the right types of 
protection on the outside of the system.
    Chairman Chaffetz. Internally, what sort of operating 
systems are you using? Microsoft products?
    Mr. Starr. Yes. It is mostly Microsoft based, although 
there's a tremendous amount of other applications on the 
system. But it's a Microsoft-based system.
    Chairman Chaffetz. Like Windows what?
    Mr. Starr. Sir, there are--there are--I'm actually not the 
best one to tell you this. IRM would be the one to tell you. I 
can tell you what is on my screen, which is I think Windows 7, 
when it comes up on the unclassified system.
    Chairman Chaffetz. Windows 97 or Windows----
    Mr. Starr. I think it's Windows 7.
    Chairman Chaffetz. It's old, isn't it?
    Mr. Starr. It's fairly new. State has made a significant 
investment in trying to upgrade the unclassified systems. But I 
would be very pleased to come up and--some of this gets into 
sensitive information, particularly about that breach. I'd be 
very pleased to come up and talk with you. But I would also, if 
I was, I would like to bring the head of IRM with me.
    Chairman Chaffetz. Okay.
    Mr. Cummings.
    Mr. Cummings. I just want to make sure we're clear now. You 
all--Mr. Starr, you're going to be providing us--I was out of 
the room in a meeting when you, apparently, said this--that you 
were going to be providing us with all the security requests 
from the regional security offices within the next 2 weeks. Is 
that right?
    Mr. Starr. I will try my absolute best to do that, sir, 
yes.
    Mr. Cummings. Okay. And you all are also going to try to 
see if you can get on the same page here.
    How do you plan to try to do that, Ms. Muniz?
    Ms. Muniz. I think the old-fashioned way. We'll have a 
conversation. We'll map something out. And then we'll come 
brief to the Hill and to others who are sort of outside the 
process to make sure that it's clear and makes sense.
    Mr. Cummings. And are you agreeable to try to do that, Mr. 
Linick?
    Mr. Linick. Absolutely.
    Mr. Cummings. Very well.
    I want to thank you all for being here today. I appreciate 
your testimony. We, of course, have our concerns. We are always 
concerned about cost, even though we know how this is pretty 
much paid for by the swap or whatever you want to call it, but 
the fact--the sale of the properties, our properties overseas 
over in London, in England. But we're also very concerned, as 
always, about security. And I think the frustration that you 
heard from the chairman, I think a lot of that is about the 
frustration of trying to make sure that we're doing it right, 
so that cross all our t's and dot our i's.
    So, anyway, but thank you all for being here, and I look 
forward to working with you.
    Chairman Chaffetz. I thank you all. This is one of the, as 
I've said a couple times before, this is one of the things that 
makes this country so unique and so sought after, is we have 
heated discussions about things we care about in an open and 
transparent way.
    We have people, the inspector general community, who 
dedicate their lives, and we appreciate them and their efforts. 
I want them to know how much we care about their work product 
and the time and effort that they take, sometimes gone for long 
periods of time, traveling around the world.
    Those that serve in Diplomatic Security and the OBO office, 
I've had the pleasure of meeting these oftentimes very young 
people who are out there dedicating their lives. They are very 
patriotic people, they work hard, and serving their Nation, and 
they're proud of what they're doing. And that is the spirit in 
which we approach this as well, as I know the both of you do.
    So we appreciate this hearing, look forward to the 
interaction.
    And with that, the hearing stands adjourned.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
